<html>
<title> - KEEPING PACE WITH INNOVATION--UPDATE ON THE SAFE INTEGRATION OF UNMANNED AIRCRAFT SYSTEMS INTO THE AIRSPACE</title>
<body><pre>[Senate Hearing 115-775]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 115-775

                  KEEPING PACE WITH INNOVATION_UPDATE
                  ON THE SAFE INTEGRATION OF UNMANNED
                   AIRCRAFT SYSTEMS INTO THE AIRSPACE

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 8, 2018

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                Available online: http://www.govinfo.gov
                
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-952 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               GARY PETERS, Michigan
MIKE LEE, Utah                       TAMMY BALDWIN, Wisconsin
RON JOHNSON, Wisconsin               TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  MAGGIE HASSAN, New Hampshire
CORY GARDNER, Colorado               CATHERINE CORTEZ MASTO, Nevada
TODD YOUNG, Indiana                  JON TESTER, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 
                                 
                                 
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

ROY BLUNT, Missouri, Chairman        MARIA CANTWELL, Washington, 
ROGER F. WICKER, Mississippi             Ranking
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               GARY PETERS, Michigan
MIKE LEE, Utah                       TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  JON TESTER, Montana
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 8, 2018......................................     1
Statement of Senator Blunt.......................................     1
Statement of Senator Cantwell....................................     2
Statement of Senator Wicker......................................    24
Statement of Senator Schatz......................................    26
Statement of Senator Moran.......................................    27
Statement of Senator Hassan......................................    29
Statement of Senator Tester......................................    30
Statement of Senator Klobuchar...................................    32
Statement of Senator Sullivan....................................    35
Statement of Senator Udall.......................................    37
Statement of Senator Inhofe......................................    38
Statement of Senator Lee.........................................    40
Statement of Senator Markey......................................    42

                               Witnesses

Earl Lawrence, Director, Office of Unmanned Aircraft Systems 
  Integration, Federal Aviation Administration...................     4
    Prepared statement...........................................     5
Brian Wynne, President and Chief Executive Officer, Association 
  for Unmanned Vehicle Systems International.....................     9
    Prepared statement...........................................    11
Matthew S. Zuccaro, President and Chief Executive Officer, 
  Helicopter Association International...........................    13
    Prepared statement...........................................    15
Todd Graetz, Director, Technology Services, BNSF Railway Company.    18
    Prepared statement...........................................    19

                                Appendix

Response to written questions submitted to Earl Lawrence by:
    Hon. Roy Blunt...............................................    45
    Hon. Dan Sullivan............................................    46
    Hon. Jim Inhofe..............................................    48
    Hon. Richard Blumenthal......................................    49
    Hon. Tom Udall...............................................    49
    Hon. Tammy Duckworth.........................................    50
    Hon. Maggie Hassan...........................................    52
Response to written questions submitted to Brian Wynne by:
    Hon. Roy Blunt...............................................    52
    Hon. Richard Blumenthal......................................    53
    Hon. Tom Udall...............................................    53
    Hon. Maggie Hassan...........................................    53
Response to written questions submitted to Matthew S. Zuccaro by:
    Hon. Roy Blunt...............................................    54
    Hon. Jim Inhofe..............................................    55
    Hon. Richard Blumenthal......................................    55
    Hon. Tom Udall...............................................    56
    Hon. Margaret Hassan.........................................    56
Response to written question submitted to Todd Graetz by:
    Hon. Jim Inhofe..............................................    56
    Hon. Richard Blumenthal......................................    57
    Hon. Tom Udall...............................................    57
    Hon. Maggie Hassan...........................................    57

 
    KEEPING PACE WITH INNOVATION--UPDATE ON THE SAFE INTEGRATION OF 
              UNMANNED AIRCRAFT SYSTEMS INTO THE AIRSPACE

                              ----------                              


                          TUESDAY, MAY 8, 2018

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:15 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Roy Blunt, 
Chairman of the Subcommittee, presiding.
    Present: Senators Blunt [presiding], Wicker, Fischer, 
Moran, Sullivan, Heller, Inhofe, Lee, Capito, Gardner, 
Cantwell, Klobuchar, Blumenthal, Schatz, Markey, Udall, Hassan, 
and Tester.

             OPENING STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. This session of the Subcommittee on Aviation 
of the Committee of Commerce will come to order.
    Good morning. I am glad to have our witnesses here, as well 
as my colleagues, to discuss unmanned aircraft systems, or what 
most of us refer to as drones.
    The Commerce Committee overall understands the importance 
of technology. We have already learned through a number of 
other hearings and meetings, and frankly watching the news, how 
many varieties of sources we have for technology that play a 
critical role in our society and particularly the rapid 
development of this area.
    While the benefits of drone technology are pretty clear, we 
need to better understand whether we are keeping pace with the 
technology and if there is a way we can encourage more rapid 
advancement and at the same time ensure the safe use of 
unmanned vehicles in the national airspace. We are working to 
ensure that we have a balance that continues to encourage 
innovation but public safety is at the forefront.
    At one point, I think many thought of drones as either a 
hobby or a highly sophisticated military technology. We know 
that drone technologies are improving at a rapid pace, that big 
tech companies are investing in future drone delivery services. 
Drones are putting on light shows at events. Precision 
agriculture is aided by drone use, and drones are putting eyes 
in places difficult for people to get to and sometimes eyes in 
places that people would rather those eyes were not.
    Drones have multiple applications. I am confident we will 
hear about that today.
    The 2017 World Civil Unmanned Aerial Systems Market Profile 
and Forecast says the value of drone activity rose from $40 
million in 2012 to about $1 billion in 2017, and that by 2026, 
the estimate is that both corporate and consumer applications 
of commercial drones will have an annual impact of $31 billion 
to $46 billion in our country.
    Anticipating the needs for a skilled workforce related to 
drones and drone technologies, a few schools like Southeast 
Missouri State University have a Bachelor of Science degree in 
unmanned air systems. I know my friend from Kansas, Senator 
Moran, is very aware of the drone-related programs at Kansas 
State Polytechnic University and Senator Cantwell of the drone-
related programs at Green River College in Washington. A number 
of my colleagues on this subcommittee have institutions of 
higher education that already have accredited drone programs, 
drone research activities, and active student groups involved 
in drones.
    The new drone program at schools across the country--their 
growth is really an indication of how rapidly this technology 
is becoming part of our life and part of our economy.
    While the industry and the technology and innovation 
related to it is growing, it is not surprising that we are 
grappling with the regulatory issues related to that growth. 
Secretary of Transportation, Secretary Chao, at a drone 
conference last year said, quote, ``The integration of drones 
into our national airspace will be the biggest technological 
challenge to aviation since the beginning of the jet age.'' She 
went on to say, ``Our job is to prepare the way for new 
technology so it can be safely deployed and usher in a new era 
of aviation service, accessibility and ingenuity.''
    For this reason, the members of this Subcommittee are here 
to listen, to learn, to ask questions, and to try to figure out 
how Congress can help the FAA safely advance in a way that 
manned aircraft has been dealt with over the years.
    So we are pleased that our witnesses are here. We have 
significant attendance from our Subcommittee.
    And I am pleased to turn to Senator Cantwell for her 
opening remarks.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thanks for 
holding this important hearing.
    And I would like to thank our panel of witnesses for 
agreeing to testify on this important subject, the integration 
of unmanned aircraft systems into our national airspace.
    The diverse interests represented by our witnesses today 
speaks to both the potential that UAVs hold and the challenges 
that the system presents. I look forward to hearing from each 
of you about what you are doing to help this rapidly developing 
technology.
    The integration of UAS requires a balanced system between 
safety of the skies, which we cannot and will not compromise, 
and the many possibilities of unmanned systems. Those 
applications include fighting wildfires, infrastructure 
inspection, and as we will hear from the panel today, aiding 
farmers from everything from reforestation to monitoring our 
borders, covering breaking news, delivering of small packages. 
And we have all heard from constituents and local businesses 
who have innovative solutions or, I should say, I do. I cannot 
go home without hearing about innovation constantly, 
constantly, constantly. So constantly innovation.
    [Laughter.]
    Senator Cantwell. So we want to develop these new 
opportunities for UAS systems.
    As the FAA have moved forward to improve the way it 
authorizes commercial UAS systems through the small UAS rule, 
known as part 107 in section 333 process, we should continue to 
work to make sure that the responsible users have the pathways 
they need to conduct an increasingly wider range of safety 
operations. Scalability is going to require us to continue to 
make sure that we have these testing opportunities.
    The issue of innovation being stalled is not a new one. I 
know we first worked to pass legislation in 2006, which was 
part of the Homeland Security Appropriations Act, to start a 
pilot program to test the use of drones to patrol our northern 
borders. Obviously with a very vast area outside our border 
crossings, we need to use these systems to detect various 
criminal activity which we were finding. So a great asset in 
helping us with the northern border.
    In my state, companies large and small are ready to 
innovate a move forward with the technology that will aid our 
farmers and foresters improve worker safety, reduce congestion. 
And as we look to enable wider operations and the safety of our 
airspace, people and property on the ground must remain a top 
priority. We want an application like unmanned aerial vehicles 
to help us on what is an ever-increasing fire season to give us 
good data and information, but I will also tell you we had 
incidents of when already authorized fire systems had to stand 
down because of concern about drone hobbyists in the area. So 
we want to use the technology for the good uses that can help 
us, but we also need to have rules of the road so that other 
parts of our air transportation system can work cost 
effectively without worrying about incidents.
    Importantly, UASs have also the potential to stabilize by 
performing dangerous attacks across a huge range of industries 
such as inspecting power lines or assessing damage after a fire 
or natural disaster. According to the Department of Labor, 
5,190 workers died on the job in 2016. Of these deaths, over 
one-third were caused by falls. While not all of these deaths 
would have been prevented by this kind of technology, it can 
help us in protecting workers in high risk occupations by 
giving good data and information. Many of these commercial UAS 
operations that the FAA has already approved for use promote 
worker safety. And so I am encouraged to see how much the Part 
107 rule takes this into consideration.
    I also look forward to hearing the panel's views on 
privacy, including how the new UAS system will fit into our 
existing privacy laws and what we can do to further protect our 
citizens on these important privacy matters that are so 
critical to all of us.
    So I look forward to hearing the witnesses today.
    And, again, thank you, Mr. Chairman, for holding this 
important hearing.
    Senator Blunt. Well, thank you, Senator Cantwell.
    Our colleague from Oklahoma, Senator Inhofe, is chairing a 
classified briefing in the Senate Armed Services Committee. 
This is an important hearing for him, and I think Senator 
Cantwell and I are both inclined when he arrives to recognize 
him so he can get back to that Armed Services hearing.
    But we will have our testimony from our witnesses. We are 
glad, again, that each of them are here: Earl Lawrence, the 
Director of the FAA's Unmanned Aircraft Systems Integration 
Office; Brian Wynne, President and CEO of the Association for 
Unmanned Vehicle Systems International; Matt Zuccaro, President 
and CEO of the Helicopter Association International; and Todd 
Graetz, the Director of Technology Services for BNSF Railway 
Company. Your testimony will all be in the record, but you can 
give as much of that or say whatever you would like to in the 
time allocated. And, Mr. Lawrence, we are glad you are here and 
go ahead and start.

             STATEMENT OF EARL LAWRENCE, DIRECTOR,

        OFFICE OF UNMANNED AIRCRAFT SYSTEMS INTEGRATION,

                FEDERAL AVIATION ADMINISTRATION

    Mr. Lawrence. Good morning, Chairman Blunt, Ranking Member 
Cantwell, and members of the Subcommittee. Thank you for this 
opportunity to speak with you today.
    In the past year, we have seen the operational envelope of 
UAS pushed further and further. It has been 20 months since the 
small UAS rule took effect. In that time, we have issued over 
90,000 remote pilot certificates, over 20,000 airspace 
authorizations, and over 1,500 operational waivers. UAS 
registrations continue to climb. We now have over 1 million, 
including over 175,000 commercial UAS registered.
    There are currently a number of exciting operations being 
conducted, including media filming over crowds, beyond line of 
sight precision agriculture surveys, package delivery testing, 
and long distance infrastructure inspection. I am sure Todd 
Graetz will elaborate further on the advancements BNSF has made 
in this area.
    We continue to work closely with the UAS stakeholders to 
facilitate more operations. When companies bring us 
comprehensive safety cases for their operations, we are 
defining the regulatory means to get them flying. The FAA is 
open for business. This was a major theme at the recent FAA UAS 
symposium, and a big thanks to Brian Wynne and AUVSI for 
cosponsoring that event.
    As part of the administration's continuing efforts to 
support UAS integration, President Trump recently directed the 
Secretary of Transportation to launch the UAS integration pilot 
program. The program is intended to identify ways to balance 
local and national interests, accelerate the approval of 
advanced operations, and collect data to support routine 
flights. Secretary Chao is expected to announce the 
participants tomorrow, and we look forward to working with them 
on advancing the program's objectives.
    We have also been working with industry partners to develop 
the low altitude authorization and notification capability, or 
LAANC. This service combines FAA data with industry innovation 
to provide near real-time authorizations for controlled 
airspace. We launched phase one of the national beta test last 
week. By September of this year, LAANC will be available at 
nearly 300 FAA air traffic control facilities covering 
approximately 500 airports.
    LAANC is a critical component of UAS traffic management, or 
UTM. A fully functional suite of UTM capabilities is a 
prerequisite for high volume operations at low altitudes. NASA 
has been leading UTM research for the past few years, and while 
we have been supporting NASA's work, the FAA has already begun 
fielding UTM capabilities with LAANC.
    As the next step in deploying UTM, remote identification 
has become one of the FAA's biggest priorities. The ability to 
identify all UAS is essential for both safety and security 
reasons. The UAS remote ID aviation rulemaking committee 
concluded its work this fall, and you can read the report on 
our website. I would like to thank Matt Zuccaro for leading 
that effort from the industry side. The FAA is now working on a 
proposed rule and is committed to establishing remote ID 
requirements as soon as possible.
    Congress recognized the security risks posed by UAS in the 
2016 FAA extension, and we are using existing authority to 
establish UAS specific airspace restrictions over sensitive 
Federal sites nationwide. Setting up these airspace 
restrictions have been highly informative, and we are using the 
lessons learned to establish a process to protect critical 
infrastructure. These restrictions are a fundamental component 
of our plan for dynamic airspace management which, along with 
remote ID, are foundational elements for the FAA's UTM 
capabilities. These efforts also address our partners' security 
concerns.
    Additionally, we continue to work with the Department of 
Defense and the Department of Energy to deploy their counter-
UAS technologies. The FAA supports the administration's 
proposal to extend counter-UAS authority to the Department of 
Justice and the Department of Homeland Security. In 
coordinating the use of these technologies, the FAA will ensure 
no adverse effect on normal airspace operations.
    ID requirements will help separate the clueless from the 
criminal, which will protect our country, facilitate education, 
and enable this industry to realize its full potential.
    We have much work to do, but we are making steady progress 
toward the safe integration of UAS and maintaining our status 
as the global leader in integration.
    Thank you for your time. This concludes my statement. I am 
happy to answer your questions.
    [The prepared statement of Mr. Lawrence follows:]

   Prepared Statement of Earl Lawrence, Director, Unmanned Aircraft 
      Systems Integration Office, Federal Aviation Administration
    Chairman Blunt, Ranking Member Cantwell, Members of the 
Subcommittee:

    I appreciate the opportunity to appear before you today to discuss 
the Federal Aviation Administration's (FAA) Unmanned Aircraft Systems 
(UAS) integration efforts. UAS--also referred to as drones--are at the 
forefront of aviation. They are being used today to inspect 
infrastructure, provide emergency response support, survey agriculture, 
and to go places that are otherwise dangerous for people or other 
vehicles. Entrepreneurs around the world are exploring innovative ways 
to use drones in their commercial activities. As of mid-April 2018, we 
have processed over 1 million UAS registrations, over 170,000 of which 
are for unmanned aircraft that can be flown commercially. The need for 
us to fully integrate this technology into the National Airspace System 
(NAS) continues to be a national priority.
    The Department of Transportation and FAA's vision for integration 
goes beyond the accommodation practices in use today by most countries, 
which largely rely on operational segregation to maintain systemic 
safety. Our goal is ambitious. We intend to fully integrate UAS into 
the most complex airspace system in the world, enabling UAS to operate 
harmoniously with manned aircraft, occupying the same airspace and 
using many of the same standards and procedures. With the support of 
this Committee, and the continued engagement of our stakeholders, we 
have made significant progress toward realizing this vision.
    One year ago, we appeared before this Committee to discuss the 
status of the safe integration of UAS into the NAS. Since then, we have 
worked tirelessly to maintain the United States' position as the global 
leader in UAS integration. Today, I would like to share with you some 
of our accomplishments, our challenges, and our ongoing work toward our 
goal of fully integrating drones and their operators into the NAS.
Enabling Increased UAS Operations
    The FAA is open for business. Using existing authorities, we are 
working with stakeholders to authorize increased UAS operations to the 
extent they can be accommodated safely. The small UAS rule, waivers and 
exemptions, and our traditional certification processes provide 
different pathways for UAS operators to access the NAS.
    The small UAS rule, 14 CFR part 107, sets the global standard for 
small drone integration, enabling UAS operations with unmanned aircraft 
weighing less than 55 pounds. Today, drone operators are using part 107 
to inspect oil and gas infrastructure, survey land and crops, support 
search and rescue, conduct disaster impact assessment, and capture 
photographs and videos for real estate and other commercial marketing 
purposes.
    In keeping with our goal of a flexible regulatory framework to 
accommodate the rapid growth of UAS technology, some provisions of part 
107 can be waived to allow expanded operations. Applicants must 
demonstrate that their proposed operation can be conducted safely 
outside the provisions of part 107. To assist applicants, we have 
published guidance on our website, including a step-by-step explanation 
of the waiver process.
    We are also taking steps to further streamline the waiver and 
authorization process. Operators can now apply for waivers through the 
FAA DroneZone, our online portal for all UAS information and resources. 
To date, the FAA has issued almost 20,000 authorizations for operations 
in controlled airspace, and over 1,500 operational waivers, most of 
which enable night operations.
    Consistent with our risk-based approach we are increasingly able to 
grant waivers for more complex operations, including for operations 
over people and beyond visual line-of-sight. Two of our original 
Pathfinder Program partners, BNSF Railway and PrecisionHawk, have been 
using these waivers to inspect infrastructure and conduct precision 
agricultural operations and crop monitoring, respectively. CNN, another 
Pathfinder partner, is using a waiver for operations over people to 
enhance its newsgathering and reporting. And X's Project Wing has used 
a waiver to test package delivery at an FAA-designated UAS test site in 
Blacksburg, Virginia. We encourage operators and innovators to bring us 
new ideas. If an operator provides the appropriate safety case to 
justify a more complex UAS operation, we will issue the waiver.
    We are also working with stakeholders to enable additional UAS 
operations using more traditional certification pathways. Like manned 
aircraft, drones are increasingly being used to spray pesticides and 
fertilizers, and for other aerial applications needed for agriculture, 
horticulture, and forestry. Using our existing certification process 
under 14 CFR part 137 and our exemption authority, we have issued three 
agricultural aircraft operator certificates to UAS operators, with 
additional certifications in process. Other applicants are in the 
process of demonstrating compliance with applicable aircraft, operator, 
and airspace requirements for small cargo delivery beyond what is 
currently authorized under Part 107. And we are working with several 
manufacturers to certify larger UAS. In November 2017, we published the 
first Federal Register notice seeking public comments on proposed 
design standards needed for an unmanned aircraft weighing 55 pounds or 
more--the FlightScan Corporation Camcopter S-100--to fly safely in the 
NAS.
Supporting Emergency Response
    UAS were invaluable in supporting response and recovery efforts 
following the widespread devastation brought about by hurricanes in 
2017. When winds and floodwaters destroyed homes, businesses, roadways, 
and industries, many agencies and companies sought FAA authorization to 
fly drones in the affected areas. We responded quickly, issuing a total 
of 355 emergency airspace authorizations, many within an hour or two of 
the request, to ensure that those drones could operate safely.
    Drones played a critical role in performing search and rescue 
missions, assessing damage to roads, bridges, and other critical 
infrastructure, and helping insurance companies act more quickly on 
claims from homeowners. In Puerto Rico, the FAA approved the first UAS 
operation of its kind to provide essential communication services. We 
granted AT&T approval to operate a 60-pound tethered drone to provide 
temporary voice, data, and Internet service while construction crews 
rebuilt a tower to restore permanent service on the island. Today, 
drones are playing an important role in restoring power to many parts 
of the island where the terrain makes it difficult and dangerous for 
workers to make repairs. Drones are being used to find broken utility 
poles and downed power lines, and to lift new transmission lines into 
place, making it easier and safer for workers to do their jobs.
    The FAA's ability to quickly authorize UAS operations after these 
storms was especially critical because most local airports were either 
closed or dedicated to emergency relief flights, and the fuel supply 
was low. As former Administrator Michael Huerta said: ``Essentially, 
every drone that flew meant that a traditional aircraft was not putting 
an additional strain on an already fragile system. I don't think it's 
an exaggeration to say that the hurricane response will be looked back 
upon as a landmark in the evolution of drone usage in this country.''
UAS Airspace Authorizations and Traffic Management
    Under part 107, drone operators must secure approval from the 
agency to operate in any airspace where air traffic control is 
providing separation services. To facilitate those approvals, we 
deployed the prototype Low Altitude Authorization and Notification 
Capability (LAANC) at several air traffic facilities last November to 
evaluate the feasibility of a fully automated solution enabled by 
public/private data sharing. Based on the prototype's success, we began 
the first phase of a nationwide beta test of LAANC on April 30, 2018, 
enabling LAANC services at about 80 airports in the South Central 
United States. This rollout will continue incrementally to nearly 300 
air traffic facilities covering approximately 500 airports. We expect 
to complete nationwide deployment in September 2018.
    LAANC uses airspace data based on the FAA's UAS facility maps, 
which show the maximum altitudes in one square mile areas around 
airports where UAS may operate safely under part 107. LAANC gives drone 
operators the ability to request and receive real-time authorization 
from the FAA, which allows operators to quickly plan and execute their 
flights. Air traffic controllers are also made aware of the locations 
where planned drone operations will take place.
    LAANC is an important step toward implementing UAS Traffic 
Management (UTM). NASA's UTM research efforts are exploring concepts of 
operation, data exchange requirements, and a supporting framework to 
enable multiple beyond visual line-of-sight UAS operations at low 
altitudes in airspace where FAA air traffic services are not provided. 
NASA is coordinating with the FAA's seven UAS test sites around the 
country, as well as a variety of industry partners, to perform phased 
testing. Phase one testing was completed in 2016, and phase two testing 
concluded in June 2017. While we're supporting NASA in completing the 
final stages of their testing this spring, the FAA is already 
implementing foundational UTM capabilities like LAANC, and also 
beginning work to establish remote identification requirements. The UAS 
Identification and Tracking Aviation Rulemaking Committee (ARC) 
delivered their recommendations last October, and we have initiated a 
rulemaking process as directed by Section 2202 of the FAA 2016 
Reauthorization (FAA Extension, Safety, and Security Act).
UAS Integration Pilot Program
    On October 25, 2017, President Trump directed the Secretary of 
Transportation to launch an initiative to safely test and validate 
advanced operations of drones in partnership with state, tribal, and 
local governments in select jurisdictions--the UAS Integration Pilot 
Program. The pilot program is a crucial step in accelerating the 
Department of Transportation's and FAA's UAS integration efforts. The 
goals of the program are to identify ways to balance local and national 
interests, improve communications with local, state, and tribal 
jurisdictions, address security and privacy risks, accelerate the 
approval of operations that currently require special authorizations, 
and collect data to support the regulatory development steps needed to 
allow more complex, routine low-altitude operations. The results of 
this program will be used to help ensure the United States remains the 
global leader in UAS integration and fully realizes the economic and 
societal benefits of this technology.
    As stated in the Federal Register notice announcing the pilot 
program, the deadline for Lead Applicants--state, local, or tribal 
governments--to submit their completed proposals was January 4, 2018. 
The response to the program has been enthusiastic--149 lead applicants 
submitted proposals for consideration. After evaluating the 
applications, the Secretary of Transportation will invite a minimum of 
10 government/private sector partnerships to participate in the pilot 
program. We are in the final stages of the selection process and 
anticipate an announcement soon.
    Additionally, in the course of reviewing the applications for the 
UAS Integration Pilot Program, we realized some good news: a large 
number of the projects and activities proposed by applicants could go 
forward under the FAA's existing rules, including with waivers where 
appropriate. Accordingly, once the ten selections for the Pilot Program 
are announced, the FAA will be reaching out to other applicants, as 
well as interested state and local authorities, to provide additional 
information on how to operationalize their proposed projects.
Challenges Ahead
    The FAA's commitment to the safe, secure, and efficient integration 
of UAS and the expansion of routine UAS operations requires resolving 
several key challenges to enable this emerging technology to achieve 
its full potential. Congress recognized a number of these challenges in 
the FAA Extension, Safety, and Security Act of 2016. Technical issues 
to ensure that a drone maintains a safe distance from other aircraft 
and that the pilot retains control of the drone must be addressed 
before UAS operations beyond visual line-of-sight can become routine. 
And there are additional policy questions raised by UAS use, including 
security, privacy, and enforcement.
    The 2016 FAA Extension clearly articulates Congress's concerns that 
the security challenges presented by the malicious or errant use of UAS 
technology require a layered and integrated government response. We are 
using our existing authority to address concerns about unauthorized 
drone operations over certain sensitive Federal facilities. To date, we 
have restricted drone flights over military facilities, sensitive 
energy facilities, and iconic landmarks like the Statue of Liberty, 
Hoover Dam, and Mount Rushmore in the interest of national security. 
Using this authority, we are considering additional Federal agency 
requests for restrictions as they are received. To ensure the public is 
aware of these restricted locations, we created an interactive map 
available on the FAA website, and we updated our B4UFLY mobile app to 
include a warning to users in close proximity of these sites. This work 
is also helping us determine the most efficient and effective way to 
implement section 2209 of the 2016 FAA Extension, which will offer non-
federal critical infrastructure owners to petition the FAA for flight 
restrictions over their facilities.
    We also continue to work with our interagency Federal partners to 
develop policies and procedures that will support protection of 
critical facilities and assets from UAS-based threats, while preserving 
airspace access and the safety and efficiency of operations in the NAS. 
Congress has provided the Department of Defense and the Department of 
Energy authorities to respond to UAS that pose a threat to designated 
facilities and assets. We also support the Administration's proposal to 
enable the Departments of Justice (DOJ) and Homeland Security (DHS) to 
protect certain facilities, assets, and operations critical to national 
security against threats from UAS. Under this proposal, DOJ and DHS 
will work closely with FAA to ensure that detection and mitigation 
technologies are developed, tested, and deployed in a manner that 
minimizes adverse impacts on airspace access, as well as air navigation 
services, avionics, and other systems that ensure safe and efficient 
operations in the NAS. By enabling Federal security and law enforcement 
agencies to detect and mitigate UAS threats and risks posed by errant 
or malicious UAS operations, the United States will continue to lead 
the way in UAS innovation and offer the safest and most efficient 
aviation system in the world.
    Another ongoing challenge to UAS integration is the potential for 
conflict between manned and unmanned aircraft. Last year, we saw a 
significant increase in the number of reported drone-sightings from 
pilots of manned aircraft. Although we cannot verify these reports, as 
the Federal agency responsible for the safety of the flying community, 
we are greatly concerned with the increasing number of these reports, 
along with events in New York, South Carolina, and Las Vegas.
    Our Unmanned Aircraft Safety Team (UAST) made recommendations to 
further reduce the likelihood of serious incidents and provide more 
accurate information about UAS sightings. First, public education and 
outreach are key to reducing these incidents. Efforts such as the 
``Know Before You Fly'' information campaign and the small UAS 
registration process serve as opportunities to ensure UAS operators 
understand the rules and responsibilities for flying an aircraft in the 
NAS. The UAST also recommended continued work on remote identification 
of UAS to provide more accurate and critical data that will allow us to 
contact a UAS operator, educate the operator, or, when necessary, take 
enforcement action to address a violation of Federal regulations. We, 
along with our security and law enforcement partners, need to be able 
to quickly identify unmanned aircraft and their operators in order to 
discern between the clueless, the careless, and the criminal--including 
serious threats to national security--and to ensure that all operators 
conduct compliant operations or face the consequences of introducing a 
safety or security risk into the NAS.
Remote Identification
    As Congress has recognized, remote identification of UAS is a 
critical step on the path to full integration of UAS technology. In 
order to ensure that our airspace remains the safest in the world, and 
to enable our law enforcement and national security partners to 
identify and respond to security risks, we need to know who is 
operating in the airspace. Effective integration and threat 
discrimination will continue to be a challenge until all aircraft in 
the NAS--manned and unmanned--are able to be identified. Anonymous 
operations are inconsistent with safe and secure integration.
    We recently published the report and recommendations prepared by 
the summer 2017 UAS Identification and Tracking ARC. The ARC's 74 
members represented a diverse array of stakeholders that included the 
aviation community and industry member organizations, law enforcement 
agencies and public safety organizations, manufacturers, researchers, 
and standards entities involved with UAS. The ARC's recommendations 
cover issues related to existing and emerging technologies, law 
enforcement and national security, and how to implement remote 
identification and tracking. Although some recommendations were not 
unanimous, the group reached general agreement on most issues. The FAA 
is reviewing the technical data and recommendations in the ARC report 
to support the development of the FAA's remote ID requirements, which 
we are committed to implementing as quickly as possible.
    We are also making headway with an ARC to address UAS in controlled 
airspace, which will provide recommendations on UAS integration in, and 
transit to, high altitude airspace. It will develop scenarios that will 
encompass the most desired operations, identify gaps in research and 
development needed to successfully integrate larger UAS into controlled 
airspace, and recommend up to five prioritized changes to policies and 
procedures that will spur integration and economic growth. The ARC held 
its fourth meeting at the end of March 2018 and plans to have its fifth 
meeting at the end of this month, where the ARC will draft and 
prioritize a working list of recommendations. The ARC will continue to 
meet through the expiration of the ARC's charter in June 2019.
Conclusion
    Throughout our history, the FAA has adapted to changes in 
technology and has successfully integrated new operators and equipment 
into the NAS. Our progress in accommodating new technologies and 
operations demonstrates that the agency is well positioned to maintain 
its status as the global leader in UAS integration. We are committed to 
working with Congress and all of our stakeholders to find solutions to 
our common challenges. Working together, we are confident we can 
balance safety and security with innovation. With the support of this 
Committee and the robust engagement of our stakeholders, we will 
continue to safely, securely, and efficiently integrate UAS into the 
NAS and solidify America's role as the global leader in aviation.
    This concludes my statement. I will be happy to answer your 
questions at this time.

    Senator Blunt. Thank you, Mr. Lawrence.
    Mr. Wynne.

              STATEMENT OF BRIAN WYNNE, PRESIDENT

            AND CHIEF EXECUTIVE OFFICER, ASSOCIATION

           FOR UNMANNED VEHICLE SYSTEMS INTERNATIONAL

    Mr. Wynne. Thank you, Chairman Blunt, Ranking Member 
Cantwell, and members of the Subcommittee. I appreciate the 
opportunity to be here today for your hearing.
    I am speaking on behalf of the Association for Unmanned 
Vehicle Systems International, the world's largest nonprofit 
organization devoted exclusively to serving and advancing the 
unmanned systems and robotics community.
    My comments today will focus on the current landscape for 
UAS in the United States and what needs to be done to fully 
integrate UAS into the national airspace system.
    As President and CEO of AUVSI, I have witnessed firsthand 
the massive growth and technological advancement of the UAS 
industry. In August 2016, after years of collaboration between 
government and industry, the FAA implemented its small UAS 
rule, also known as Part 107. Since then, demand for commercial 
UAS has skyrocketed. As of March 2018, more than 150,000 
platforms have been registered for commercial use. The FAA 
reauthorization bill, recently passed by the House of 
Representatives, lays the groundwork for even more widespread 
and expanded uses of this technology.
    Generally speaking, operators currently need to fly under 
400 feet within visual line of sight and only during daytime 
hours. However, recognizing the need for the rule to be 
flexible in order to foster innovation, the FAA created a 
waiver process under Part 107 that allows for expanded types of 
operations such as nighttime or beyond line of sight with the 
approval of the agency. To date, more than 1,700 operators 
across the U.S. have received these waivers.
    Industry is not alone in adopting this technology. States 
and municipalities are increasingly utilizing UAS technology to 
enhance public safety and respond to natural disasters. For 
example, in Missouri, the Conway Volunteer Fire Department 
recently used UAS to survey the scene of a traffic accident and 
help guide their response. Firefighters in the Pacific 
Northwest use UAS to identify hotspots and direct water drops 
during wildfires. Colorado authorities successfully used a 
drone last summer to find two missing hikers and their dog. And 
the Stearns County Sheriff's Office in Minnesota used UAS 
equipment with thermal cameras to find and apprehend a fleeing 
domestic assault suspect.
    States and municipalities are not just utilizing UAS, they 
are also seeking to regulate their use. While the FAA must 
maintain ultimate authority over our skies, last year the White 
House announced a UAS integration pilot program that will 
provide an opportunity for State and local governments to 
collaborate with the UAS industry and the FAA to further 
develop a Federal policy framework for UAS integration.
    The continued adoption of this technology will require an 
expanded regulatory framework that includes beyond visual line 
of sight operations, nighttime operations, and flight over 
people. We were expecting a Notice of Proposed Rulemaking for 
flight over people more than a year ago, but this next 
regulatory step has been indefinitely delayed over security 
concerns. In trying to get this Rulemaking back on track, 
industry stepped up and offered solutions for remote 
identification of UAS platforms. To the extent more needs to be 
done, we need broader engagement from our government partners, 
notably those responsible for national security, to understand 
their specific concerns and work collaboratively to address 
them.
    The FAA reauthorization bill, recently passed by the House 
of Representatives, is another positive step in furthering the 
regulatory framework. The bill calls for UAS initiatives that 
build upon existing industry-government collaboration and 
expand commercial operations such as rulemaking around a UAS 
traffic management system, which will help ensure the safe and 
efficient use of the national airspace. We encourage the Senate 
to support these provisions when it considers FAA 
reauthorization.
    The UAS industry is primed for incredible growth, thanks to 
industry representatives and government regulators nurturing 
innovation that helps businesses be competitive in the 
marketplace. We hope that these efforts can be sustained, that 
a long-term FAA bill can be passed by the Senate and signed 
into law, and that together we continue to pave the way for 
regular and widespread UAS use.
    Thank you again for the opportunity to testify this 
morning. I look forward to questions.
    [The prepared statement of Mr. Wynne follows:]

   Prepared Statement of Brian Wynne, President and Chief Executive 
    Officer, Association for Unmanned Vehicle Systems International
    Chairman Blunt, Ranking Member Cantwell and members of the 
subcommittee, thank you very much for the opportunity to participate in 
today's hearing. I am speaking on behalf of the Association for 
Unmanned Vehicle Systems International, the world's largest non-profit 
organization devoted exclusively to advancing the unmanned systems and 
robotics community. AUVSI has been the voice of unmanned systems for 
more than 40 years. We represent corporations and professionals from 
more than 60 countries involved in business, government and education. 
AUVSI members work in the defense, civil and commercial markets.
    Our members are exploring new and expanded ways that unmanned 
aircraft systems (UAS) of all shapes and sizes can help American 
businesses realize the benefits of this technology. My comments today 
will focus on the current UAS landscape in the United States and what 
needs to be done to fully integrate UAS into the National Airspace 
System.
    As the president and CEO of AUVSI since 2015, I have witnessed 
firsthand the massive growth and the impressive technological 
advancements of the UAS industry. From examining pipelines and 
newsgathering to inspecting critical infrastructure and surveying 
damage after natural disasters such as last year's devastating 
hurricanes and wildfires, UAS help save time, money, and most 
importantly, lives.
    For years, AUVSI urged the FAA to use all available means to 
establish a regulatory framework for UAS. And now, we have initial 
regulations governing civil and commercial UAS operations. The FAA's 
small UAS rule, also known as Part 107, was implemented in August 2016, 
following years of collaboration between government and industry. The 
rule established a flexible, risk-based approach to regulating UAS and 
reduced many barriers to low-risk civil and commercial UAS operations. 
This allowed businesses and innovators to begin to unlock the many 
economic and societal benefits of UAS.
    Since then, demand for commercial UAS has exploded. Thousands of 
businesses, large and small, across the country, are embracing this 
technology and integrating UAS into their operations. As of March 2018, 
more than 150,000 platforms have been registered for commercial use. 
The FAA expects more than 450,000 UAS to be flying for commercial 
purposes over the next five years, three times as many as today. The 
FAA reauthorization bill recently passed by the House of 
Representatives lays the groundwork for even more widespread and 
expanded uses of this technology.
    Currently, anyone who follows the rules can fly under Part 107. 
Generally speaking, operators need to fly under 400 feet, within visual 
line of sight and only during daylight hours. However, recognizing the 
need for the rule to be flexible in order to foster innovation, the FAA 
created a waiver process under Part 107 that allows for expanded types 
of operations, such as nighttime or beyond line of sight operations, 
with the approval of the agency.
    To date, more than 1,700 operators across the U.S. have received 
waivers for expanded operations under Part 107. An AUVSI analysis of 
the first 1,000 found that companies in 47 states are already taking 
advantage of the process to operate at night, as well as to operate in 
certain airspace, beyond line of sight and over people. More than 90 
percent of these are small businesses with fewer than 10 employees. The 
FAA has granted about 74 percent of the waivers to operators who had 
not previously flown UAS under the Section 333 exemption process, 
demonstrating how having regulations and rules in place has helped 
increase the adoption of this emerging technology. For example, CNN has 
a waiver to operate its UAS over crowds of people to capture new 
perspectives on breaking news, and Intel dazzles Disney World visitors 
with a light show that features 300 unmanned aircraft at one time.
    Part 107 and its waiver process were just the first steps in 
creating a regulatory framework for UAS integration into the airspace. 
There is still a high and, as yet, unmet demand for expanded UAS 
operations that will pave the way for these future innovations. An 
economic analysis by AUVSI projects that the expansion of UAS 
technology will create more than 100,000 jobs and generate more than 
$82 billion to the economy in the first decade following integration 
into the national airspace. After witnessing the growth of the industry 
over the last few years and now with Part 107 in place, these figures 
could be even higher under the right conditions.
    Industry is not alone in adopting this technology. States and 
municipalities are increasingly utilizing UAS technology the enhance 
public safety and respond to natural disasters. For example:

  <bullet> In Missouri, the Conway Volunteer Fire Department recently 
        used UAS to survey the scene of a traffic accident and help 
        guide their response.

  <bullet> Firefighters in the Pacific Northwest have used UAS to 
        provide situational awareness during wildfires. The infrared 
        cameras on the UAS allow them to not just find the perimeter of 
        the wildfire but identify hotspots and help determine where to 
        direct water drops from manned aircraft.

  <bullet> Douglas County Search and Rescue successfully used a drone 
        last summer to find two missing hikers and their dog in 
        Colorado's Pike National Forest.

  <bullet> And the Stearns County Sheriff's Office in Minnesota used 
        UAS equipped with thermal cameras to apprehend a fleeing 
        domestic assault suspect who was hiding from authorities.

    States and municipalities are not just utilizing UAS, they are also 
seeking to regulate their use. However, Federal control of the airspace 
is a bedrock principle of aviation law that dates back well over 50 
years, and is one of the reasons that the United States maintains an 
aviation safety record that is the envy of the rest of the world. While 
the FAA must maintain ultimate authority over our skies, last year, the 
White House announced a UAS Integration Pilot Program that will provide 
an opportunity for state and local governments to collaborate with the 
UAS industry and the FAA to further develop a Federal policy framework 
for integrating UAS into the skies above communities across the Nation.
    The pilot program will offer a data-driven approach to allow for 
expanded UAS operations, including beyond line of sight, and UAS 
traffic management concepts. Importantly, it will also provide a 
mechanism for state, local and tribal officials to contribute their 
views to a national UAS policy framework, without infringing on the 
U.S. government's jurisdiction over the national airspace.
    The continued adoption of this technology will require an expanded 
regulatory framework that includes beyond visual line of sight 
operations, nighttime operations and flights over people. We were 
expecting a Notice of Proposed Rulemaking for flights over people more 
than a year ago, but this next regulatory step has been indefinitely 
delayed over security concerns. In trying to get this rulemaking back 
on track, industry stepped up and offered solutions for remote 
identification of UAS platforms. AUVSI participated in the Aviation 
Rulemaking Committee to provide recommendations for remotely 
identifying and tracking operators and owners of UAS, working towards 
implementing a remote ID system that identifies any UAS flying in the 
airspace--in real-time. We hope this technology goes a long way toward 
alleviating the concerns of the security community. To the extent more 
needs to be done, we need broader engagement from our government 
partners, notably those responsible for national security, to 
understand their specific concerns and work collaboratively to address 
them.
    In the interim, industry stepped up and offered solutions for 
remote identification of UAS platforms. AUVSI collected papers on 
remote identification solutions from industry stakeholders to help the 
FAA meet its congressional directive under the 2016 FAA reauthorization 
extension to develop consensus for such standards. The FAA's Drone 
Advisory Committee (DAC), of which I am a member, provides another key 
forum for the FAA and industry to work together to provide consensus-
based recommendations to the FAA regarding safe and efficient 
integration of UAS into the airspace.
    Much has been accomplished so far because government and industry 
have banded together to advance UAS. The collaborative process in which 
we have engaged, and the goals we share of supporting innovation and 
ensuring the safety of the national airspace, have made for a working 
relationship that is defined by both productivity and mutual respect. 
This has led to a more flexible and nimble approach to regulating UAS, 
as well as to more businesses adopting the technology. The United 
States was once falling behind the rest of the world in embracing UAS; 
now our country is leading the way.
    The FAA reauthorization bill recently passed by the House of 
Representatives is another positive step in furthering the regulatory 
framework. The bill calls for UAS initiatives that build upon existing 
industry-government collaboration and expand commercial operations. In 
particular, the bill calls for rulemaking around a UAS Traffic 
Management (UTM) system, which will help ensure the safe and efficient 
use of the national airspace. It also calls for rulemaking concerning 
carriage of property, a necessary step for allowing UAS package 
deliveries. The bill's extension of the FAA UAS test site program will 
also further research on sense-and-avoid technologies and beyond-line-
of-sight operations, spurring greater innovation to find solutions to 
make UAS fly higher and farther, more safely and efficiently. We 
encourage the Senate to support these provisions when it considers FAA 
reauthorization in a few weeks.
    The UAS industry is primed for incredible growth, thanks to 
industry representatives and government regulators nurturing innovation 
that helps businesses be competitive in the marketplace. We hope that 
these efforts can be sustained, that a long-term FAA bill can be passed 
by the Senate and signed into law by the President this year, and that 
together we continue to reach new historic milestones in integrating 
this technology into the national airspace and pave the way for regular 
and widespread UAS use.
    Thank you, again, for the opportunity to speak today. I look 
forward to answering any questions that the committee may have.

    Senator Blunt. Thank you, Mr. Wynne.
    Mr. Zuccaro.

                STATEMENT OF MATTHEW S. ZUCCARO,

             PRESIDENT AND CHIEF EXECUTIVE OFFICER,

              HELICOPTER ASSOCIATION INTERNATIONAL

    Mr. Zuccaro. Good morning, Chairman Blunt, Ranking Member 
Cantwell, and members of the Subcommittee. I want to thank you 
for holding this critical hearing and the opportunity to 
provide the testimony.
    I have been involved in aviation for over 50 years, and I 
do not remember a more exciting watershed moment than this one. 
The potential benefits of unmanned aircraft are only limited by 
our imagination. But along with that excitement and optimism, 
we must also take on the responsibility of making this 
integration safe, which requires all the stakeholders working 
together in order to ensure success.
    The helicopter industry has been an early supporter of UAS 
technology, and we see it as a new business opportunity. Our 
members have been and will remain heavily engaged in unmanned 
operations in the coming years.
    The concept of aircraft integration is not new. We have 
safely integrated numerous aircraft categories into the 
airspace since aviation began. We do not need to reinvent the 
wheel.
    One important element of safety comes from standardization 
of aviation regulations by designating the FAA as the sole 
regulatory authority. This has created an operating environment 
that provides a national standard which is managed by 
professional subject-matter experts, creating a safe, 
efficient, and economically viable environment. Degrading and 
fracturing the FAA's authority creates an uncertain environment 
with reduced safety margins. A routine helicopter power line 
inspection mission might take the aircraft through dozens of 
local municipalities during the flight. If each municipality 
were to have singular authority over aviation activities within 
its boundaries, the resulting situation would be conflicting 
and uncertain.
    It is understood that a successful integration strategy 
must be inclusive and provide a place at the table for all 
appropriate stakeholders, including local, State, 
municipalities. However, the ultimate regulatory authority and 
oversight must remain with the FAA.
    FAA regulations and governance need to apply to all 
categories of aircraft operating in the NAS. However, in 
Section 336 of the FAA Modernization Reform Act of 2012, 
Congress put in restrictions that limited the FAA's ability to 
fully regulate recreational and private use UAS operators. For 
the safe integration of UAS, the FAA must be able to regulate 
the aircraft in the NAS. All of them. HAI advocates that 
Congress approve legislation relating to section 336 that gives 
the FAA full and singular regulatory authority over all 
unmanned operations.
    Some believe the easiest and quickest way to integrate UAS 
into the national airspace system is by excluding manned 
aircraft from certain segments of existing airspace. HAI 
believes that integration of aircraft, not the segregation of 
airspace, is the correct path forward. The NAS is a natural 
resource and one that should be open to all. Current airspace 
users should never be excluded from airspace that they 
currently have access to.
    The next step in advancing UAS operational capabilities is 
the ability to safely operate the UAS beyond the visual line of 
sight. This requires an effective and certificated see, sense, 
and avoid technology. Developing this technology needs to be 
prioritized so that we can achieve safe beyond visual line of 
sight operations.
    All aircraft, whether manned or unmanned, should have 
similar protocols for identification and surveillance, as 
appropriate to the mission involved, the aircraft capabilities, 
and the perceived security threat. As part of this effort, 
consideration should also be given to the right of privacy for 
the pilot operators using ``need to know'' philosophy that 
balances individual rights and our national interests.
    Operating any aircraft, manned or unmanned, comes with a 
degree of responsibility and accountability to ensure safe 
operation. As such, effective training and certification 
programs for those associated with all aircraft is a must. HAI 
advocates for training that delivers a basic level of 
understanding for anyone operating an aircraft in the NAS. How 
can we expect anyone to comply with a regulation that they have 
never been trained on?
    Because of the close integration of aircraft manufacturing 
and certification of the aircraft and safety, the certification 
is critical. The FAA must have an effective, yet flexible 
certification system that not only ensures safety of flight but 
also enables the swift recognition and adoption of new 
technologies. This is an important issue when considering the 
possible effect of UAS operations on persons and property.
    In closing, I would like to note my belief that when people 
of like mind and shared vision come together and work towards a 
common goal for the greater good, they can achieve anything. I 
am confident that we will find a way to work through the issues 
that have been outlined and that UAS will join manned aircraft 
in the airspace safely, efficiently, and effectively to the 
advantage of us all.
    I thank the Committee again for the opportunity to provide 
the perspective of the helicopter industry and look forward to 
continuing our work together on these important issues. I 
welcome any questions.
    [The prepared statement of Mr. Zuccaro follows:]

Prepared Statement of Matthew S. Zuccaro, President and Chief Executive 
             Officer, Helicopter Association International
    Chairman Blunt, Ranking Member Cantwell, and Members of the 
Committee, I want to thank you for holding this hearing on the critical 
issue of integration of unmanned aircraft systems (UAS) into the 
National Airspace System (NAS). I also want to express my sincere 
appreciation for the opportunity to provide testimony today.
    I have been involved in aviation for more than 50 years, both 
helicopter and fixed-wing, military and civilian. During my entire 
career, I have not experienced a more exciting watershed moment than 
this one: the integration of unmanned operations and technology into 
the NAS. The potential benefits are only limited by our imagination. 
But along with such excitement and optimism, we must also take on the 
responsibility of making this integration safe, which requires all 
stakeholders to work together to ensure success.
    As a representative of Helicopter Association International (HAI), 
I currently serve as a member of the FAA Drone Advisory Committee and 
the FAA Airspace Integration Aviation Rulemaking Committee. I have 
previously served as co-chair of the FAA UAS Identification and 
Tracking Aviation Rulemaking Committee and a member of the FAA UAS 
Registration Aviation Rulemaking Committee.
    HAI's focus has been--and remains--on creating a culture in our 
industry that makes ``Safety the First Priority.'' Our vision is to 
have ``Zero Accidents.'' Over my many years in the industry, I have 
seen tremendous growth and change, and today's focus on and commitment 
to safety is the highest I have ever seen in the helicopter community.
    HAI's 4,100 members safely and professionally operate approximately 
5,500 helicopters, flying an estimated 3 million flight hours a year. 
Our member companies and individuals span the industry, from manned and 
unmanned operators, to pilots, mechanics, manufacturers, and suppliers 
of goods and services.
    Today's topic of UAS integration is about introducing a new 
category of aircraft safely into the NAS. From the beginning, HAI has 
been fully engaged in promoting this.
    We have been early supporters of UAS technology and see it as a new 
business opportunity for the helicopter industry. Our members have been 
and will remain heavily engaged in unmanned operations in the coming 
years. Many have already established UAS business lines within their 
organizations.
    This integration is occurring as we speak, but the concept of 
integration is not new. We've been integrating numerous aircraft 
categories into the airspace since aviation began. At one point, jets 
were new. Helicopters were new. Yet these aircraft were safety 
integrated into the NAS. We do not need to reinvent the wheel.
    Today I want to touch on five important topics relating to the safe 
integration of UAS:

  <bullet> The importance of the FAA preemption authority

  <bullet> Ensuring safe access to the NAS for all aircraft

  <bullet> The criticality of ensuring the safety of operations that 
        occur beyond the visual line of sight of the pilot or operator

  <bullet> The necessity of establishing training and certification 
        standards for UAS operations

  <bullet> The need for a nimble certification system for UAS.
FAA Preemption Authority
    One important element of safety in the NAS comes from 
standardization of aviation regulations--and therefore operational 
processes and procedures--through Federal preemption of aviation 
regulation, designating the FAA as the sole regulatory authority over 
U.S. aviation. This clearly defined FAA authority has created an 
operating environment for U.S. aviation that provides a system of 
safety for all operators of all categories of aircraft.
    Our industry's first and foremost concern is for safety, which is 
as it should be. The principle of Federal airspace preemption allows 
for one national regulatory authority, staffed by professional subject 
matter experts, to oversee the NAS with a common set of rules and laws 
understood by all operators, either manned or unmanned.
    FAA airspace preemption ensures that all operators know the rules 
of the road--because there is one regulatory authority that oversees 
all of U.S. aviation. Manufacturers build to FAA regulations, operators 
train to FAA regulations, and companies structure their operating 
procedures based on this common set of regulations. This long-
established structure is an integral component of aviation safety, 
efficiency, and economic viability.
    Safety at all levels is enhanced by standardization of rules and 
procedures, a stable knowledge base, and clearly defined lines of 
authority. Degrading and fracturing FAA airspace preemption to allow 
other entities to introduce regulations for either manned or unmanned 
aircraft creates an uncertain operating environment with reduced safety 
margins.
    Introducing multiple variables of potential operational behavior 
just because you have crossed imaginary political boundaries adds risk 
to the operator and the public. At worst, these multiple variables may 
produce conflicting procedures or incentives, leading to a significant 
breach of safety. A routine aerial powerline inspection mission might 
take an aircraft through dozens of local municipalities during the 
mission. If each municipality were to have singular authority over 
aviation activities within its boundaries, the result could be a 
regulatory environment that is uncertain, in conflict, and counter to 
safety initiatives.
    A successful integration strategy must be inclusive and provide a 
place at the table for all appropriate stakeholders, including local 
and state municipalities. However, ultimate regulatory authority and 
oversight must remain with the FAA.
    FAA regulations and governance need to apply to all categories of 
aircraft operating in the NAS. However, in Section 336 of the FAA 
Modernization and Reform Act of 2012, Congress put in place 
restrictions that limited the FAA's ability to fully regulate the more 
than 1 million recreational and private-use UAS operators. Over the 
next five years, the FAA predicts the number of hobbyist drones will 
more than double to 2.4 million units.
    For the safe integration of UAS into the NAS, the FAA must be able 
to regulate all aircraft in the NAS. HAI advocates that Congress 
approve legislation relating to Section 336 that gives the FAA full and 
singular regulatory authority over all unmanned operations.
Airspace Access
    Some believe the easiest and quickest way to integrate UAS into the 
NAS is by excluding manned aircraft from certain segments of existing 
airspace. HAI believes that describes segregation, not integration. The 
integration of aircraft, not segregation of airspace, is the correct 
path forward.
    Today all types of aircraft safely traverse the skies, from the 
humble Piper Cub to the most advanced airliner or military fighter. The 
NAS is a national resource and one that should be open to all who 
operate in compliance with FAA regulations. Current airspace users 
should never be excluded from airspace that they currently have access 
to. Segregation of the airspace with associated restrictions and 
prohibitions being placed discriminatorily on certain aircraft 
categories runs counter to our safety priorities and is an initiative 
HAI and its members do not support.
    The UAS is simply the newest entrant on a list of many into the 
NAS. Older, established categories of aircraft should not be required 
to surrender their airspace access to accommodate this new technology. 
Instead, all aircraft and operators must work together to promote the 
safety of the NAS and to ensure that all airspace is safely accessible 
to all aircraft.
    Safety is paramount, especially when considering airspace access. 
We have concerns when we hear about measuring risk over congested areas 
while considering noncongested areas as low risk. Our members' flight 
profiles and the missions they fly place them all over the Nation in 
varied environments at various altitudes. From corporate helicopters 
flying out of high-density urban metroplexes to remote heli-logging 
operations, utility repair work, or firefighting missions, our 
helicopters are performing operations in a variety of situations and 
locations.
    Just because the airspace is not defined as congested does not mean 
that there won't be manned aircraft operating in that section of the 
NAS. Safety requires that we all understand that risks aren't confined 
to just congested areas.
Beyond-Visual-Line-of-Sight Operations
    The next step in advancing UAS operational capabilities and truly 
breaking open their commercial potential is the ability to safely 
operate UAS beyond visual line of sight. From our perspective, beyond-
visual line-sight operations for UAS will only be safe once effective 
and certificated ``see, sense, and avoid'' technology is fielded. UAS 
must be able to avoid other aircraft, both manned and unmanned, while 
facilitating the ability of those aircraft to see, sense, and avoid the 
UAS. We already have experienced incidents where drones have collided 
with helicopters or have created a near-miss situation.
    It is generally acknowledged that the technology for true ``see, 
sense, and avoid'' capability is not yet ready to deploy. Our members 
also want the ability to operate their UAS beyond visual line of sight, 
but the technology is simply not ready to provide the desired level of 
safety for conducting these types of operations. Developing mature 
technology that can withstand the FAA certification process needs to be 
prioritized so we can achieve safe beyond-visual-line-of sight 
operations--and then we will truly reap the benefits of a mature UAS 
industry.
    As co-chair of the FAA UAS Identification and Tracking Aviation 
Rulemaking Committee, I have worked extensively on the need for drones 
to be identified and tracked in real time. This relates to both 
security concerns as well as the safe and efficient use of the NAS. All 
aircraft, whether manned or unmanned, operating in the NAS should have 
similar protocols of identification and surveillance as appropriate to 
address the mission involved, aircraft capabilities, and perceived 
security threat. As part of this effort, consideration should be given 
to the right to privacy for the pilot/operators, using a need-to-know 
philosophy that balances individual rights and our national interests.
Training and Certification Associated with Unmanned Aircraft Operations
    Operating any aircraft (manned or unmanned) should be considered a 
privilege, not a right. With that privilege comes a degree of 
responsibility and accountability to ensure safe operation. As such, 
effective training and certification programs for those associated with 
aircraft operations is a must.
    Aviation training and certification requirements are necessary for 
a safe, efficient, standardized, and economically viable aviation 
operating environment. Appropriate training and certification protocols 
should be applied to UAS integration using the existing manned aircraft 
common-sense approach that considers the mission, aircraft 
capabilities, and potential security threat. HAI advocates for training 
that delivers a basic level of understanding for anyone operating an 
aircraft in the NAS. How can we expect anyone to comply with 
regulations that they have never been trained in?
Aircraft Certification
    Because of the close integration of aircraft manufacturing 
standards with aircraft safety, the certification of any aircraft is a 
critical issue. UAS are becoming more complex and capable by the day. 
The FAA must have an effective yet flexible certification system that 
not only ensures safety of flight but also enables the swift 
recognition and adoption of new technologies while facilitating a user-
friendly process that is economically viable.
    HAI supports a certification program for the UAS category of 
aircraft. This will provide for standardized manufacturing processes 
and a common level of quality. This is an important issue when 
considering the possible effect of UAS operations on persons and 
property.
    We all acknowledge that UAS technology is constantly improving and 
changing at breathtaking speeds. The FAA needs to have a certification 
process that can efficiently respond to the fast-paced changes in the 
industry. A nimble regulatory approach is essential so that industry is 
not held up waiting for government oversight to catch up to new 
technologies. A flexible certification system will ensure that safety 
is preserved while allowing manufacturers to certify and deploy their 
latest technologies to the field.
Conclusion
    In closing, I would note my belief that when people of like minds 
and shared vision come together and work toward a common goal for the 
greater good, they can achieve anything. I am confident that we will 
find a way to work through the issues that I have outlined and that UAS 
will join manned aircraft in our airspace, safely, efficiently, and 
effectively, to the advantage of us all.
    I thank the Committee again for the opportunity to provide the 
perspective of the helicopter industry and look forward to continuing 
our work together on these important issues. I welcome any questions.

    Senator Blunt. Thank you, Mr. Zuccaro.
    Mr. Graetz.

              STATEMENT OF TODD GRAETZ, DIRECTOR, 
           TECHNOLOGY SERVICES, BNSF RAILWAY COMPANY

    Mr. Graetz. Thank you, Chairman Blunt and Ranking Member 
Cantwell and members of the Subcommittee, for the opportunity 
for BNSF to testify before the Subcommittee today.
    BNSF became involved in the FAA's Pathfinder program 
because it is aware that technology is one of the key levers 
for continuous improvement in safety and efficient operations.
    BNSF has previously testified before the Surface 
Transportation Subcommittee about how an evolving suite of 
technologies fits within our risk-based safety program. 
Equipment inspection technologies provide a real-time and 
ongoing view of our assets under load, and drones provide an 
additional overlay of these inspections. BNSF deploys these 
technologies based on conditions, risk, and the opportunity to 
reduce employee exposure. Together, these technologies allow 
BNSF not only the ability to continually monitor track and 
equipment health to improve safety, but they also throw off 
large amounts of data which, of course, when analyzed properly, 
allow us to undertake predictive maintenance. Operationally 
this means fewer asset outages, less down time, and more 
efficient network planning.
    BNSF has been using drone flights since 2014 for 
supplemental visual track and bridge inspections in a variety 
of conditions. We have exponentially extended the utility of 
drones in our network over time, given increasingly high 
resolution cameras and agile drone systems. We use both short-
range and long-range aircraft to provide supplemental 
information on bridge and structure inspections, track 
integrity analysis, weather event recovery, service 
interruptions, and yard measurement capability. And we also use 
these drones to support the security of our critical 
infrastructure.
    We saw the Pathfinder program as an opportunity to learn 
more about how to best manage our increased use of drones over 
and near our facilities, which are critical assets. It would 
make little sense to deploy a safety technology like drones and 
actually impose risk on the network with airspace conflict and 
potential railroad asset damage.
    The Pathfinder program was a win-win opportunity. With 
BNSF, the FAA developed a layered platform for safely flying 
beyond visual line of sight. These operations then combined our 
right-of-way, our technology, and our procedures and analytics. 
We overlaid the use of dedicated spectrum, air traffic control 
sensors, and air traffic displays with existing FAA flight 
procedures and used our analytical capabilities to create a 
baseline risk assessment of UAS flights along the right-of-way. 
This should be helpful to the FAA as it addresses the ongoing 
challenges of a wider beyond visual line of sight drone use 
such as air traffic control infrastructure constraints and 
limitations on detect and avoid capabilities.
    Pathfinder allow BNSF to further explore safe drone 
utilization on our right-of-way. We were able to use multiple 
safety mitigations to protect manned aircraft from our drone 
operations and also considered options for improved technology 
in the areas with higher traffic levels.
    Pathfinder also allowed BNSF to participate in an important 
safety technology demonstration with a Federal agency, the FAA. 
The agency implemented a robust, risk-based, data-supported 
oversight system which has enabled the FAA to best target its 
priorities and resources and permitted BNSF the necessary 
flexibility to safely make the first long-range BVLOS drone 
operations a reality and allowed BNSF to determine the best 
application of promising new technology very quickly. This is a 
prototype for demonstration of railroad technologies through 
flexible application of existing regulatory requirements.
    Thank you for the opportunity to discuss our experience 
with the Pathfinder program, and I look forward to answering 
your questions.
    [The prepared statement of Mr. Graetz follows:]

   Prepared Statement of Todd Graetz, Director, Technology Services, 
                          BNSF Railway Company
Introduction
    Thank you Chairman Blunt, Ranking Member Cantwell and Members of 
the Subcommittee for the opportunity to submit testimony and appear 
before the Subcommittee on the subject of ``Keeping Pace with 
Innovation--Update on the Safe Integration of UAS into the Airspace.'' 
It is my privilege to testify before the Subcommittee today and discuss 
with you BNSF's experience with the use of Unmanned Aircraft Systems 
(UAS). I hope to give you some insight into the practical implications 
of this technology in the railroad operating environment, and BNSF's 
experience as a participant in the Federal Aviation Administration's 
(FAA) Pathfinder program.
    BNSF recognizes the essential role technology plays in driving the 
dramatic improvements we have achieved towards safer rail operations, 
particularly over the last decade. For the past several years, our 
experimentation with UAS--or drones--has provided an additional overlay 
of inspections and an additional tool for our comprehensive risk based 
safety program. BNSF's drone program and participation in the 
Pathfinder program has provided valuable learning about airspace 
deconfliction procedures and techniques.
    Drones are part of a suite of inspection and detection technologies 
for track, rail and equipment. Our other technologies provide a real-
time and ongoing view of our assets ``under load'' in operations, and 
offer BNSF the ability to continually monitor track and equipment 
health. They provide for high resolution inspection and associated data 
analytics that is far superior to visual inspections, and detect safety 
standard deviations in real time so that we can respond before 
something happens and preventatively maintain assets. Drones are 
utilized for certain inspections and are providing additional 
visibility into our assets and operations. Together, these technologies 
are improving safety and reducing risk exposure for our employees.
    As one of three companies selected by the FAA to participate in the 
Pathfinder program, BNSF's experience with the FAA's administration of 
the program was excellent. BNSF appreciates its partnership with the 
FAA. The agency implemented a robust risk-based, data-supported 
oversight system which has enabled the FAA to best target its 
priorities and resources, and permitted BNSF the necessary flexibility 
to safely make the first long-range ``beyond visual line-of-sight'' 
(BVLOS) UAS operations a reality. The Pathfinder program allowed us the 
flexibility to begin this program and determine the best application of 
promising new technology quickly.
    Safe integration of drones into our operating environment is 
extremely important, given the nature of our network as critical 
infrastructure and the need to ensure against the risk of operational 
disruption or infrastructure damage. With the FAA's guidance, we 
conducted testing, developed a safety platform, established best 
practices, and initiated BVLOS drone flights along our railroad right-
of-way. BNSF's work with the FAA demonstrated our ability to control 
the land and airspace utilized by our UAS flights across managed flight 
corridors over BNSF's property. As the FAA continues its effort to 
build the foundation for broader commercial use of UAS and BVLOS 
flights in the U.S., BNSF believes that it has contributed to the 
agency's better understanding of BVLOS drone operations. Going forward, 
BNSF will continue to use UAS in its operations, as one of several 
tools to continue fundamental improvements in our network safety and 
efficiency.
Review of the Use of UAS in Railroad Operations
    Since 2014, BNSF has been using UAS flights for supplemental visual 
track and bridge inspections in a variety of conditions. From the 
start, our interest in this effort was aimed at focusing on community 
and employee safety. Increasingly high resolution cameras and agile 
drone systems offered us the prospect of enhancing visual inspections 
while reducing the risk presented by track occupancy for our workers 
and providing additional support to diminish the risk of derailment on 
our network.
    In May 2015, the FAA announced creation of its Pathfinder program 
and partnered with three U.S. companies to perform research aimed at 
helping the agency determine how to safely expand UAS operations in the 
United States. As part of this program, BNSF was tasked with exploring 
the challenges of using BVLOS drones in remote areas to inspect rail 
infrastructure. We have since expanded the use of both short-range and 
long-range aircraft as well as computer vision and data analytics to 
provide supplemental information to our engineering staff with bridge 
and structure inspections, track integrity analysis and yard 
measurement capability.
    Through Pathfinder, the FAA and BNSF had the inherent understanding 
that we were both focused on risk elimination while the Federal 
Government pursued the safe integration of UAS into the National 
Airspace System (NAS). With BVLOS flights as the FAA's stated direction 
for BNSF to pursue, our leadership made a commitment to this planned 
three-year partnership and using existing rail infrastructure to 
support air traffic control (ATC) capabilities. This process required 
us to work collaboratively on design standards, analytics development, 
and adequate exemptions to position our team to deliver an effective 
``proof of concept'' that would allow the FAA to continue moving 
towards expanded use of commercial drones in U.S. airspace.
    In October 2015, BNSF began initial BVLOS drone flights on our 
Clovis Subdivision in New Mexico. Since that initial test, over the 
past three years, BNSF has conducted more than 4,500 hours of UAS 
flights. We have developed a drone operations prototype that can expand 
across our network to supplement inspecting infrastructure, monitor 
system security and survey service interruptions. For example, we 
conduct concrete tie and key train route evaluations, assess track 
integrity, establish switch position confirmation, organize flash flood 
patrols, and initiate significant applications for resource protection. 
By using drones that are equipped with the proper multispectral imaging 
and computer functions, BNSF has been able to produce asset condition 
reports of all varieties that contain location, detailed imagery and 
even identify potential items of concern.
    Our work under Pathfinder also encouraged BNSF to establish a 
process for conducting supplemental structure inspections with 
continuing, focused rotations using ``line of sight'' operations. This 
allows us to provide additional inspections for some of our challenging 
bridges on a recurring basis. Some of these bridges rise 200-300 feet 
above the ground and the reduced human exposure while gaining more 
repetitive views and angles on these massive structures will help to 
further the safety of our workforce while giving us an enhanced view of 
the structural integrity of vital aspects of our network.
    Our drone experience showed that the application of HD camera 
technology has great promise as a tool to help better evaluate the 
condition of track and structures. BNSF continues to determine the best 
host for the use of the camera technology, whether on a drone or the 
front of locomotives or other locations. We already use a variety of 
other technologies to fuse information gathered from specialized 
railcars, right-of-way sensors, and now drones, through data analytics 
to achieve ongoing predictive maintenance of railroad assets. Together, 
these technologies enable BNSF to reduce exposures to risk for the 
thousands of employees who inspect lines, locomotives and cars, permit 
more efficient use of maintenance resources and make the railroad 
safer.
Review of Pathfinder BVLOS UAS Operations on BNSF
    While BNSF's Pathfinder partnership with FAA ended in 2018, it has 
produced a number of significant successes that FAA, the transportation 
industry, and potential commercial users can build upon. More than 680 
of the 4,500 drone flight hours conducted during BNSF's participation 
in the Pathfinder program have been BVLOS and have led to more than 
2.8TB of flight and safety data collection for us and the FAA to 
review. This information will help the FAA safely integrate commercial 
UAS flights into the NAS.
    BNSF also worked with FAA to produce airspace risk assessments to 
better understand the behavior, frequency and density of air traffic in 
the surrounding areas. This knowledge allowed us to use multiple safety 
mitigations to protect manned aircraft from our drone operations and to 
consider options for improved technology in those areas with higher air 
traffic levels.
    A major accomplishment of the Pathfinder experience was the 
approach we developed with the FAA to establish a layered platform for 
safely flying BVLOS drones that combined our right-of-way, technology, 
procedures and analytics. We overlaid the use of dedicated spectrum, 
ATC sensors and air traffic displays with existing FAA flight 
procedures (standard communication plans and navigational charts), and 
used our analytical capabilities to create a baseline risk assessment 
of UAS flights along the BNSF right-of-way. All three components of 
this platform contribute to enhanced safety of these operations and 
improved the overall effectiveness of the system. This should be 
helpful to the agency as it addresses the ongoing challenges of wider 
BVLOS drone use, such as ATC infrastructure constraints and limitations 
on detect-and-avoid capabilities.
Conclusion
    We have found after several years of the use of drone technology 
that their best application is for the evaluation of bridge structures 
and during service outages and incidents. Going forward, BNSF will 
continue to leverage the safety and operational benefits of drones on 
our network. We are grateful for the opportunity to have worked closely 
with the FAA through the Pathfinder program. One of the most 
significant benefits for BNSF was the insight we gained into the 
process of partnership with a safety regulatory agency to demonstrate 
new technologies, and transition quickly and safely into ongoing 
operations. This is a prototype for other railroad technologies that 
BNSF uses on our network. We seek to fully and efficiently utilize them 
in our operations by demonstrating them through flexible application of 
existing Federal Railroad Administration (FRA) regulatory requirements, 
and then implement them across the network after showing that they meet 
expectations for safety outcomes. BNSF believes that the kind of 
partnership that it achieved with the FAA can be achieved with the FRA 
to obtain ``pathfinder'' railroad safety and regulatory results.

    Senator Blunt. Thank you, Mr. Graetz.
    So we already have 15 members in line to ask questions. Let 
us stay as close as we can to the 5-minute limit, and if 
anybody wants to stay around for the other 14 to ask questions, 
there will be a second round. Starting with me, we will stay as 
close as we can to that.
    Thank you for your testimony.
    Mr. Lawrence, I keep hearing about the importance of the 
remote ID requirement. Can you explain why that is important 
and what you are doing to address that? And if you all will 
keep your answers as short as you can too, that will allow us 
to ask the questions we would like to ask in the 5 minutes we 
have to do that. So what are you doing about remote ID?
    Mr. Lawrence. All right. Thank you, Senator.
    Remote ID is basically our ability to connect a drone with 
its operator. So first and foremost, it is to be able to know 
what is flying out there and connect them to their operation. 
The other thing that remote ID allows us to do is help advance 
beyond line of sight operations by enabling other aircraft 
machine-to-machine detection. So it really does two things. It 
helps the first responders and people on the ground understand 
what is operating in their environment, and two, it allows 
other aircraft to avoid them and help advance beyond line of 
sight operations.
    Senator Blunt. Do you think it should be a requirement for 
beyond line of sight operation?
    Mr. Lawrence. It is a requirement for beyond line of sight 
operations. To have some form of ID, we would like that 
standardized across the entire airspace network so that we can 
use it to detect and avoid, in addition to just identify.
    Senator Blunt. Mr. Wynne, you mentioned the wide adoption 
of drone technology with your members and others. For the 
Committee to think about, how do we get people comfortable with 
the idea of thousands, maybe millions of unmanned aircraft that 
are out there in the future that are not out there right now?
    Mr. Wynne. I think education is going to be key, Mr. 
Chairman. And needless to say, we are not going to jump from 
here to millions. We are going to gradually introduce this 
technology. And I think increasingly people are beginning to 
realize this is about public safety in addition to commerce, 
and it is going to benefit society in many, many different 
ways. So educating people about the good uses of this 
technology and how it can reduce congestion on roads and all 
kinds of things for a future transportation system is going to 
be really important.
    Senator Blunt. And with unmanned delivery, has anybody done 
that yet? Have any of your members actually delivered unmanned 
delivery packages to someone's door?
    Mr. Wynne. They have done it under controlled 
circumstances. Yes, sir.
    Senator Blunt. And how did people react when they saw that 
drone coming down the street?
    [Laughter.]
    Mr. Wynne. I cannot say exactly. As I say, it was a 
controlled circumstance. But I think generally speaking, people 
right now are pretty wild about the technology.
    Senator Blunt. Mr. Zuccaro, a lot of what now we are 
thinking might be done with the drones particularly in the 
public safety area, the inspection area previously has been 
done, if it was done at all, by helicopters. Is there 
resistance in the helicopter industry to this new technology, 
and if not, why not?
    Mr. Zuccaro. I think we are being honest about the 
technology. We have embraced it. We accept it. As I said, from 
an aviation standpoint, this is the most exciting thing that 
has ever happened in aviation. If you take a look at it 
realistically, we are the aviation segment that is most 
symbiotic and going to be affected by unmanned aircraft. A lot 
of our day is spent 500 feet or less over the ground. We are 
doing utility missions. We are serving the greater good of the 
public. By far, the majority of missions performed by 
helicopters directly benefit the safety and public and quality 
of life. So we look at this as who better than us. We are 500 
feet or less. We operate in the vertical mode and have hover 
capability, and we are doing the missions that the drones are 
now doing. We want to embrace it. We want to become a large 
purveyor of this operation.
    Senator Blunt. And, Mr. Graetz, your company has embraced 
this technology a little quicker than most. What do you see as 
the big advantage over this versus what you have been doing?
    Mr. Graetz. So this is supplemental right now. As a 
company, we are always on the lookout for additional safety 
technology. So this had some promise. We are currently in a 
proof of performance to see what and if this technology can 
play a role in the long term. But as it stands now, it is 
interesting. It is powerful, but it is just part of a larger 
suite of systems that we utilize to inspect and maintain our 
infrastructure.
    Senator Blunt. Thank you.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman.
    Mr. Lawrence, tomorrow Secretary Chao is set to announce 
the first selections for the integrated pilot program which 
would provide important opportunities to demonstrate a wide 
range of different commercial uses, including package delivery. 
Does the FAA have the authorities it needs to authorize 
delivery operations under the pilot?
    Mr. Lawrence. Yes, we do have the authorities that we need 
to authorize package delivery. And we have been already working 
with several package delivery companies and certifying both 
their aircraft and their operation.
    Senator Cantwell. So how quickly could you see the kind of 
operations beginning?
    Mr. Lawrence. So the speed at which the operations will 
begin is really up to the manufacturers and the producers 
because there are two key things. The aircraft has to meet the 
certification standard, and their operations, just like any 
other aircraft operator, has to show how they have control over 
their operation. Those are both actively underway by several 
entities, and it could be as soon as a year or it could be 
multiple years. Again, it goes back to how fast those companies 
will apply and conform to the requirements.
    Senator Cantwell. It could be 2018, or you would think it 
would probably be 2019?
    Mr. Lawrence. Well, the testing is being conducted right 
now. There are several package delivery entities who are doing 
testing right now. So, again, it will be up to them. I would 
not think it is going to be months because it will take them 
time to fully certify their systems, but they are well on their 
way and I think it is closer than a lot of us think.
    Senator Cantwell. I definitely have seen demonstrations. So 
I definitely think it is closer than a lot of people think.
    But I think the thing that is most interesting about this 
is that most package deliveries they estimate are under 5 
pounds. So that is what makes this such a great application is 
delivering those kinds of small packages to people. 
Particularly if we are talking about medicine or something that 
is urgently needed, I think there are really interesting 
applications.
    And, Mr. Wynne, you mentioned--one of the things that I am 
very impressed by is--unfortunately, we had a very horrific 
accident involving a commuter train on I-5 that basically ended 
up shutting down I-5. Anytime you are shutting down I-5, you 
are having a big economic impact in the millions of dollars.
    So one of the things that DOT and entities worked on was 
using that drone technology to do a modeling of the incident. I 
think you referred to this maybe or maybe you were referring to 
others. Using that technology working with the State Patrol, 
they were able to reopen a lane of I-5 faster than they ever 
would have been able to do.
    So is this technology--every fatality on a highway takes 
hours and hours because you have to get that right. But is this 
drone technology going to help us in this getting better data 
and information about accidents so that we can get faster 
response to reopening?
    Mr. Wynne. Absolutely, Senator. The numbers are really 
staggering how quickly we can get an accident investigation 
wrapped up, get the first responders and anyone on the road out 
of the scene, get the road opened up again, reduce congestion, 
reduce frustration, and do it accurately, very, very 
accurately. So, once again, whether it is a large-scale event 
or it is just a simple accident that is causing closing several 
lanes of road, it is an extremely valuable technology to 
deploy.
    Senator Cantwell. I am thinking in the millions of dollars. 
I wish there was some way we could categorize this and think 
about this particular application as it relates to law 
enforcement. We train so much in the Northwest for what people 
call the ``big one.'' So we had so many people ready to respond 
to this incident from Fort Lewis to our State Patrol, but 
everybody just extols the virtues of what was able to be done 
on this modeling that then helped everybody move forward, which 
could have been days and days and days of I-5 closure. So I 
hope that we will continue to prioritize this as an 
application.
    Thank you, Mr. Chairman.
    Senator Blunt. Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Mr. Lawrence, there is a center of 
excellence comprised of 22 of the world's leading research 
institutions called ASSURE, the Alliance for System Safety of 
UAS Through Research Excellence. And this center of excellence 
is led by Mississippi State University I am pleased to say. It 
focuses on research, education, and training.
    How will the FAA utilize the product and the research of 
ASSURE? And does our FAA reauthorization bill adequately 
address this issue?
    Mr. Lawrence. Thank you, Senator. I appreciate the 
opportunity to address that.
    The center of excellence and ASSURE is really key to our 
applied research for the FAA, and it has been extremely 
supportive.
    One of the things that we have done internally is we have 
built an integration research plan, which we have coordinated 
with NASA and other agencies, as well as all the offices within 
the FAA. And ASSURE helps us directly support the needed 
research. That research plan links directly to every policy and 
rulemaking activity that we need to do to fully integrate UAS. 
So all the activities of the center of excellence are tied to 
supporting that research----
    Senator Wicker. Are they in response to requests by FAA?
    Mr. Lawrence. Yes, sir.
    Senator Wicker. And other entities or only FAA?
    Mr. Lawrence. No, other entities as well. The COE is 
supporting industry as well, which is also a very important 
step, as we have mentioned. A lot of the research that is 
needed, things like UTM, in support of both the industry and 
the U.S. Government needs.
    Senator Wicker. We have a proposed reauthorization bill. Is 
it adequate in that respect? I have been dealing with this 
center of excellence.
    Mr. Lawrence. It is adequate for the FAA needs, yes, sir.
    Senator Wicker. Now, Mr. Wynne--I will direct this question 
to Mr. Lawrence first, then to Mr. Wynne. Mr. Wynne mentioned 
the concerns of the security community and that that had 
somewhat slowed down recommendations for remotely identifying 
and tracking operators of UAS. What do you say to that? Do you 
remember that part of the testimony?
    Mr. Lawrence. Yes, sir. I believe the context is that it 
has slowed down some of our advance operations, not so much our 
ID. ID is key to moving forward. We have worked very closely 
with our security partners. They have pointed out some security 
needs that we have for our country, and we have worked with 
them over the last year to reorganize our advanced operations 
rules for conducting operations over people, flight at night, 
and additional activities. We think remote ID and the work we 
have done with our security partners will enable us to move 
forward----
    Senator Wicker. The regulatory step has been indefinitely 
delayed over security concerns. Is that true?
    Mr. Lawrence. Certainly we have spent the last year working 
with our security partners to understand their needs, and we 
have an advance notice of proposed rulemaking that will address 
security concerns that we are looking forward to putting out 
this year. And also we believe the remote pilot ID rule will 
also address the security concerns.
    Senator Wicker. Mr. Wynne, how indefinitely is this delay?
    Mr. Wynne. Well, we hope it is not indefinite. We hope that 
we will have the remote ID soon. The purpose of my putting that 
into my testimony was to highlight the fact that the FAA's 
province is safety. Security is--there are other government 
partners that are more interested in that.
    I think in that instance when it came to remote ID, what we 
discovered was that we have to get things in the right 
sequence. We all know that we have to remotely identify, put 
license plates, if you will, on our platforms if we are going 
to fly beyond visual line of sight. What we learned from the 
security community was they wanted those license plates for 
flight over people, which was much earlier on the continuum. 
And industry responded to that. We worked with the FAA. The FAA 
responded to that. Now we need to know is that enough to 
proceed with flight over people and then moving on to more 
extended operations from there.
    Senator Wicker. Mr. Graetz, is this really going to relieve 
congestion in our highways?
    Mr. Graetz. I could not comment on highways. I can tell you 
where this technology can come into play is that it allows 
someone to inspect a linear piece of infrastructure with a 
higher rate of frequency and not essentially be on the track or 
the roadway. What it can do long-term--it is very early to 
tell.
    Senator Wicker. Thank you.
    Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator Wicker.
    Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman. Thank you for 
having this hearing. I appreciate all the testimony.
    I will start with Mr. Wynne. Mr. Wynne, can you paint me a 
picture? I am particularly interested in disaster relief and 
response. It seems to me that we have only just begun to tap 
the potential in terms of managing disasters, not just to 
assess what is going on but actually to deliver supplies, to 
deliver possibly electricity. And my concern is that frankly 
there is so much private sector opportunity here that 
delivering stuff that you get paid for is being prioritized. 
But the real opportunities in terms of improving people's lives 
may be on the disaster response and management at the side.
    So I want you to paint a picture for what is possible, say, 
30 years from now if we are working with USAID or the 
Department of Defense is helping folks overseas or we are 
dealing with an earthquake or a tsunami or a hurricane. What is 
the potential that you see for drones, and what do we need to 
do to get there?
    Mr. Wynne. Thank you, Senator.
    I think you are exactly right. And we actually celebrated 
some of those humanitarian efforts last week at our large trade 
show in Denver where folks that had been providing medicine and 
so forth beyond visual line of sight operations in Africa are 
collecting tremendous data. And I would agree with you that we 
have only begun to scratch the surface here.
    But the good news is that we will learn in parallel what 
needs to be done with everyday operations, extended operations 
that will benefit us in a major event. If we learned anything 
during 9/11, it was the things that our first responders need 
in a major event, they have to be everyday tools. So what we 
are trying to work with--and AUVSI has a very robust 
partnership with public safety--is what do they need on an 
everyday basis that would then translate into their ability to 
serve the public and to recover in a major event.
    Senator Schatz. Mr. Lawrence, I know you only represent one 
agency in one department of the Federal Government. But I guess 
my basic question for you is, is there a point agency on trying 
to maximize the impact of drones in terms of disaster response 
and recovery? Is that you? Is that FEMA? Do we need to 
designate a lead agency? Are we sure that there is enough 
interagency thinking around this? And do you need any 
additional authorities?
    Mr. Lawrence. So, Senator, thank you for highlighting that 
issue.
    I think that is an area where there is a lot of interagency 
discussions. We have what is called our EXCOM. That was a 
congressional mandate where we do coordinate among all of us. 
That includes Department of Commerce, Department of Energy, 
Department of the Interior, DOD, the Department of Homeland 
Security where we do share our experiences and look how we can 
better use this particularly during emergency responses.
    In that process, one of the things that I am proud of is we 
are authorizing in emergency situations in less than an hour in 
all cases the airspace necessary to conduct operations by not 
just our Federal partners but also local, State, and in some 
cases even civil authorities that are in support of emergency 
responses.
    Senator Schatz. And that is great. But it seems to me that 
the money behind innovation is understandably behind trying to 
figure out how to sell something. And what you are doing is 
trying to overlay your authority under the statute and try to 
be as flexible as possible. What I am trying to figure out is, 
how do we put some money behind research, how do we put some 
resources behind research and then application of this in a 
disaster context? And it is not at all clear to me that Amazon 
or anyone else is going to have the incentive to do the thing 
that I think is clearly the government's job.
    Mr. Lawrence. So I would not want to highlight our FAA test 
sites. Again, there are the seven test sites. They have done 
some tremendous work, some of them very much focused on 
emergency response and how they can respond to that. In the 
hurricanes in Texas this last year, the Texas test site was 
instrumental in helping that disaster relief and providing data 
and standards. They are developing more and more standards for 
fire departments, police departments, and insisting in those 
types of technologies that are focused on first response, not 
on the commercial package delivery.
    Senator Schatz. Thank you very much.
    Senator Blunt. Senator Moran, followed by Senator Hassan.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Chairman Blunt, thank you very much.
    Mr. Lawrence, let me ask you a couple of questions. First 
of all, let me brag about my state. Kansas has been a leader in 
the development of innovative aviation technology for a long 
time. We are proud that Kansas created the first unmanned 
traffic management network in the United States. That system 
was enhanced last week by LAANC, low altitude authorization and 
notification capability program. Thank you. We are excited to 
make drone innovation happen. And I believe Kansas has 
submitted a very competitive proposal for the DOT's integration 
pilot program. We await tomorrow's announcement.
    But with all this that is happening in the UAV space, what 
is the FAA doing to align the outcomes of drone integration 
programs to leverage those activities to enable safe 
integration? Where do we go now?
    Mr. Lawrence. Thank you. That is always a good question, 
what do we do now?
    It is about aligning about all of our different activities, 
and what we have been working in the integration office is to 
have one integration plan for the agency. We have developed 
that internal plan where we align all of our activities, 
including our research activities, to go step by step into the 
full integration of UAS systems.
    But we also do not let that limit us. As you have 
highlighted in your state, we need to see operations now. I 
would say that is one of the things that we have evolved to 
over the years. It is not just about getting regulations first. 
It is also about getting operations first so we can learn from 
those. And I think the IPP program, as you have highlighted, is 
one of those things that will educate us and help align and 
speed up our rulemaking activities because we will better 
understand how those operations work in the real world and how 
we can alter our existing rules and alter our existing systems 
to support them better.
    Senator Moran. Thank you.
    Let me ask you an additional question. This deals with 
universities across the country. They offer courses to students 
that use UASs as part of their coursework. Engineering 
aerospace students might be building a model aircraft or 
demonstrate the physics and aerodynamics of an unmanned 
aircraft. The universities are able to conduct these activities 
because of a 2016 FAA memorandum that indicates that UAS 
coursework counts as hobby or recreational under Section 336. 
That is a significantly less burdensome process than Part 107. 
And, I wanted to get your take on is if that is appropriately 
being used? Is it something we can count on continuing? Do we 
need to worry about any increased burden on those educational 
activities? That was only a memorandum, and I am trying to make 
certain that there is some certainty in this arena.
    Mr. Lawrence. Well, thank you for highlighting that.
    In all our rulemaking activities and all our approaches, 
the FAA takes an incremental approach to UAS operations. So we 
want to have the lightest touch as necessary depending on the 
risk posed by that particular operation. Many of these research 
activities do not impose a significant risk to the national 
airspace system, and therefore, they do not need a significant 
touch and we can take advantage of model operations.
    Other operations, as we are seeing the industry develop, 
may be a full-scale agricultural sprayer at a Kansas 
university. Now we are talking a several thousand-pound 
aircraft doing aerial spraying unmanned. That transitions into 
something that we would have some additional regulatory 
oversight over.
    So I would just like to highlight. We look to have the 
appropriate oversight for the risk of that particular 
operation, and we are always going to--it is best for our 
resources and for advancing innovation to have the least amount 
of oversight resources necessary for those operations.
    Senator Moran. Would you have any suggestions for tweaks or 
changes to Part 107 that we need to pursue in this arena?
    Mr. Lawrence. I think the one thing that we continually 
look at of how can we use Part 107 better--and it is really the 
visual line of sight rule--has some very basic airspace 
training requirements. We think those airspace training 
requirements and that understanding of that airspace system 
should apply to all operators in the NAS. Right now, it is 
looked at as it is just for commercial operators. We think that 
is good information, even if you are a university class, that 
you understand the airspace that you are operating in, and we 
would encourage that to be more universally accepted as the 
basic amount of knowledge necessary to be operating a UAS.
    Senator Moran. Mr. Lawrence, thank you very much for your 
leadership, and thank each of you for your testimony.
    Senator Blunt. Thank you, Senator Moran.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Well, thank you, Mr. Chair. And thanks to 
you and Ranking Member Senator Cantwell for having this 
hearing.
    Good morning to our panelists. Thank you for being here and 
for your work.
    I am pleased to hear that things are still moving forward 
with regard to the UAS integration in our airspace, which will 
bring new efficiencies, jobs, and economic growth to our 
economy. Industry estimates indicate that between 2015 and 
2025, UAS will bring 100,000 jobs to the United States and 
generate $82 billion in economic activity. Additionally, I see 
this as an opportunity to highlight U.S. leadership and 
innovation and to continue to lead the world in cutting-edge 
technology.
    So to Mr. Lawrence and Mr. Wynne, from a regulatory 
perspective, what more is needed to ensure that the United 
States continues to be a world leader in the safe use of this 
technology? I am really thinking about--we have talked a lot 
about the importance of integration regulations, but what do we 
need to do make sure that we are leading here globally?
    Mr. Lawrence. Thank you very much for that question. As I 
have reiterated several times throughout my testimony, the next 
key thing for us is ID. Without ID in the system--everything 
hinges on that, our UTM abilities, our ability to operate 
beyond line of sight. And to maintain that leadership in the 
world, we have to have a universal acceptance of an ID network 
and that all the users of the airspace have to follow the same 
airspace rules. It is very difficult to allow additional 
operations like package delivery when other aircraft in that 
same airspace do not have to identify themselves.
    Senator Hassan. Thank you.
    And, Mr. Wynne, anything to add?
    Mr. Wynne. Well, just simply that we need to maintain the 
collaborative posture that we have had. And it has always been 
my view that it is incumbent upon industry to bring solutions 
to the government. We have a marvelous community that is able 
to do that. Mr. Lawrence mentioned remote identification. He 
asked us to request White Papers from the community. I think we 
had 45 or 43 inside of 2 weeks, a high level, but nonetheless, 
that became the basis of the ARC, the aviation rulemaking 
committee, that Mr. Zuccaro chaired. So all of us here are not 
only collaborators, but we are friends and we work together 
across the aviation community and bring in industries that have 
not heretofore really been in the flying business.
    Senator Hassan. That is great. Thank you so much for that.
    Mr. Lawrence, I also wanted to follow up on another topic 
that has already been touched on. It is my understanding that 
UAS will bring great benefits to rural farmers and precision 
agriculture. You mentioned just in your answer to Senator Moran 
about spraying in the agriculture field.
    In recent years, it has really been fascinating to see how 
farmers are using new technology to boost their businesses and 
find new efficiencies. Can you describe for the Committee what 
the FAA is seeing through the Pathfinder program and other 
initiatives in terms of how drones will help farmers?
    Mr. Lawrence. Well, thank you.
    The Pathfinder program has been instrumental in those types 
of operations. One of the first expansions that we saw of what 
would be a beyond line of sight operation was what we call 
extended line of sight, and that was with Precision Hawk and 
their operation of agriculture. They managed to increase the 
acreage covered by over 3,000 percent by--when we say extended 
visual line of sight, which means we do not have detect and 
avoid equipment on the aircraft, but we are using still the 
human on the ground to detect incoming aircraft and manage 
those operations.
    I do not see that as the future, though. That helps a lot 
and is immediate and allows us to use the tools that are 
available today. In the future and in growth in agriculture, we 
are seeing larger aircraft and aircraft up in the tens and 20 
thousands of feet. And we are working very closely with those 
communities right now, with their detect and avoid systems. And 
we see them in the coming years taking the place of many of the 
smaller aircraft when it comes to agriculture operations.
    Senator Hassan. Well, thank you for that.
    It also seems to me that in order for this to be as 
effective as it can for rural Americans, we are going to need 
to make broadband connectivity a top priority. You are nodding 
your head. For the record, yes?
    Mr. Lawrence. It is certainly one of the favored means to 
support our traffic management systems and our communications 
systems. So it is definitely a tool that is helping us greatly 
in expanding the reach of unmanned systems.
    Senator Hassan. Thank you.
    And because I have very little time left, I am just going 
to let you all know I am going to submit for the record a 
question about how we can continue with this technology while 
developing it to also respect the privacy concerns that many of 
my constituents have been raising with me. So I will submit 
that question for the record. And I greatly appreciate your 
testimony today.
    Thank you, Mr. Chair.
    Senator Blunt. Thank you, Senator Hassan.
    Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chair.
    And I want to thank you all for being here today. I 
appreciate you coming in. I apologize for having to leave.
    Look, military, hurricanes, wildfires, ag, rails, 
Department of Homeland Security--this can be as big as your 
imagination. And this may be the only time you will ever be 
compared to Facebook, but that is the same thing. It is a 
platform that was all positive until somebody got a hold of it 
that wanted to do bad things with it. The same thing could 
happen here.
    And so I want to touch from a couple different angles. 
Number one, what is the timeline for remote ID?
    Mr. Lawrence. So, Senator, we are working as fast as we can 
to put together a rule for remote ID. And as you know, 
rulemaking is a very deliberative process.
    Senator Tester. I got you. Do you have a timeline that you 
anticipate you are going to have real ID done by? Because one 
thing that I have found, if there is never a date certain, it 
could go on forever.
    Mr. Lawrence. We have not established it into the 
rulemaking plan yet, but I will say this. As we were mentioning 
with LAANC, we are not waiting just for the rule. It is part 
ID. It is also a network thing. It is part of our UTM system. 
So we are testing it now, and we are starting on the 
development of actually building the computer systems for that 
network ID.
    Senator Tester. I would agree that it is critically 
important.
    The next question I have as far as real ID is, does 
everybody in the world know what is going on or is it within a 
mile or is it within 100 miles or is it Washington, D.C. or who 
knows?
    Mr. Lawrence. So we envision two basic areas for ID. There 
is the networked ID. So that is something that is tied into the 
UTM system so the users of the UTM system can see all the other 
users. That does not necessarily mean they know their name, 
their address, and their phone number. They just know there is 
an operator.
    Senator Tester. So let me give you an example. There was 
the Lolo fire last summer in Montana. You probably know all 
about this. They were fighting fires like crazy, keeping homes 
from burning down. And they shut down the whole fleet. Why? 
Because there was a drone flying along and these helicopters 
were flying at treetop levels. If there would have been remote 
ID, would you have known who was flying that? Because it may 
have been somebody as a hobby. It may have been somebody that 
was doing a--a working professional to do some kind of video. 
Would you know?
    Mr. Lawrence. In the system we are envisioning now----
    Senator Tester. Yes.
    Mr. Lawrence.--that makes it through the rulemaking 
process, yes, we would know those people. We would have known 
the----
    Senator Tester. And how quickly could you shut them down if 
you noticed that they were in the air in the wrong area?
    Mr. Lawrence. As quickly as we could get somebody to the 
location of the operator. We would know the location of the 
operator.
    Senator Tester. Are there rules right now for--you know, 
you have got three different categories. But are there real 
rules now for altitude and all that stuff? And I am talking 
about for general aviation's sake. I would assume the person 
who is doing precision ag on agriculture that is running a 
plane that can carry thousands of pounds of chemical, you are 
going to know when they are up there and you are going to be 
able to at least visually see them.
    What about the small ones? What about the more hobby ones? 
Are there any rules around these folks? Can they go as high as 
they want? Tell me if there are any rules.
    Mr. Lawrence. So I think as you know, the----
    Senator Tester. I really do not.
    Mr. Lawrence [continuing]. Under 336, there is a set of 
community-based rules of a national organization. And so they 
establish what those rules are for those----
    Senator Tester. So you are saying the rules exist but on a 
community basis and not on a national basis?
    Mr. Lawrence. I believe the legislation--and I know I am 
probably not quoting it correctly--is a nationally based 
community organization.
    Senator Tester. Well, that is interesting.
    So let me ask you this. So I am a property owner that lives 
in rural America, and one of these damn drones is flying over 
my house. The same thing could be said for one that was flying 
over the White House here a few years back. What tools do I 
have if I do not know who the hell's drone it is and they land? 
Can I shoot them out of the air? Is that legal?
    Mr. Lawrence. It is not legal, sir. We hope that we do not 
resort to shooting aircraft down.
    Senator Tester. So what tools do I have for somebody that 
may be wanting to do something bad to me? I mean, if an 
airplane is circling above my house, I call you. You deal with 
it. You do not have a remote ID for these guys. What can be 
done?
    Mr. Lawrence. Well, you have highlighted our key struggle 
and why we are asking for a remote ID and working so hard on 
that because we cannot follow up and find out whether they are 
just clueless or criminal.
    Senator Tester. My very last question, Mr. Chair.
    Does your budget allow for you to be able to get this--do 
you have the dollars to be able to get this real ID developed 
within your budget that is being proposed this year?
    Mr. Lawrence. As far as the ID system, depending on the 
rulemaking effort, we are trying to work within our existing 
resources now.
    Senator Tester. I think this is just really critical, and I 
appreciate your work. And I think we really need to put our 
foot on the gas pedal.
    Last question. Are you related to Rick Graetz?
    Mr. Graetz. Yes.
    Senator Tester. Well, if you are half as smart as him, you 
are smart.
    Mr. Graetz. Thank you, Senator. I appreciate that.
    Senator Blunt. Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you to all of you.
    Northwest Minnesota has become, along with North Dakota, a 
national leader in education around construction, operation, 
and maintenance of UAS. The Northland Community and Technical 
College in Thief River Falls has a state-of-the-art campus and 
offers the first unmanned aerial systems maintenance training 
program in the country. These courses prepare students for well 
paying, in-demand jobs.
    Mr. Wynne, do you anticipate a need for new employees 
specifically trained in UAS technology to prevent a skills gap 
in the industry?
    Mr. Wynne. Indeed, I do, Senator. It is delightful to hear 
about that program, and we have an entire foundation--
RoboNation it is called now, the AUVSI Foundation--that is 
dedicated to literally kindergarten to workforce to make 
certain that we are able to--that we are bringing up a skilled 
workforce in order to fill, no doubt, the high paying jobs that 
I think one of the Senators mentioned. So, yes, ma'am.
    Senator Klobuchar. Were you going to add something, Mr. 
Lawrence? No? You just looked interested in my profound 
question. All right. I will go on.
    Senator Wicker and I introduced the Precision Agriculture 
Connectivity Act just recently to identify gaps in coverage, 
encourage broadband deployments in farms and ranchland. It was 
recently reported by the Commerce Committee, and we are going 
to push for action on the floor.
    What role do drones play in precision agriculture, Mr. 
Wynne?
    Mr. Wynne. It is an enormous market for drones. It is a 
wonderful application for the most part. Of course, farms are 
out of urban areas and in areas where there is less flying 
going on. At the same time, drones need to be diligent of 
aerial applicators who, as we have already indicated, fly at 
low altitudes. So it is a very interesting test case for us. I 
think initially we anticipate that there will be a large market 
for agriculture. How rapidly that market develops is a function 
of the margins of agriculture.
    Senator Klobuchar. Just so people who maybe are not from 
rural areas see this, I mean, there is limited water right now. 
We are having water shortages, and drones can actually look at 
the land and be able to better see where we need to deploy 
limited water supplies as opposed to just going all over the 
whole land. And it is going to make a big difference on that 
and some other deployment of chemicals and other things if we 
are more able to limit them if we can see what you cannot 
really see unless you look at every little inch of land.
    Mr. Wynne. That is exactly right. They are flying sensors 
and can be utilized that way.
    Senator Klobuchar. Mr. Lawrence, while UAS sightings near 
airports have been relatively limited, each sighting represents 
a potential disaster, of course. Take one example. September 
10, 2016, an Air Force C-17 was on final approach to 
Minneapolis-St. Paul International Airport. The pilot reported 
they were in final descent when a UAS passed just under their 
nose slightly to the right of the aircraft.
    This incident highlights that the Department of Defense is 
an important user of the national airspace. As you work to 
integrate UAS into the national defense system, how are you 
working with the Department of Defense to ensure military 
operations are not impeded, as well as, obviously, commercial 
airlines?
    Mr. Lawrence. Well, thank you for highlighting that 
incident. It is something that is very near and dear to the 
FAA, and that is safety around the airports and the airport 
environment. And that is why the Department of Defense has to 
follow the same operational rules as all other airspace users. 
And that is one of the things that we are really looking to 
highlight today. We think all users should have to follow the 
same airspace restrictions and rules of the road, so to speak, 
and also be ID'ed. We think that would avoid those types of 
circumstances.
    And then specifically working with the Department of 
Defense, I mentioned it earlier. We have our EXCOM work. We 
work with them on a regular basis on how we can integrate their 
operations. And our EXCOM is focused on integrating operations 
and supporting their efforts to have access to the airspace, 
particularly at the higher altitudes.
    Senator Klobuchar. And last, you stated in your testimony 
that one of the key challenges to full UAS integration into the 
national airspace is a threat of malicious use. We know that 
drones have been used in criminal activity. They can be used to 
collect personal data some of my colleagues have pointed out. 
In addition to the oversight, do you expect additional 
enforcement from other agencies may be necessary to protect 
government and the public from the threat of malicious or 
invasive drone activity?
    Mr. Lawrence. Yes. That is one of the things that we are 
looking forward on the integration pilot program to learning 
more about how we work with the local law enforcement and first 
responders in responding to these various activities. It is 
obviously going to be somebody on the ground in that local area 
who will first be responding to an operation of concern in 
somebody's backyard, neighborhood, a stadium event, or anything 
like that. So we are looking at the IPP program to help us with 
understanding how we can better coordinate and what systems we 
need to support them.
    Senator Klobuchar. Thank you. And thank you, Mr. Wynne, for 
using the example from Minnesota. I appreciated that. And I 
will put in writing, Mr. Chairman, some follow-up questions 
with the NextGen 9-1-1 Caucus that I chair along with Senator 
Burr. Thank you very much.
    Senator Blunt. Thank you, Senator Klobuchar.
    While Senator Sullivan settles in, Mr. Graetz, I know that 
BNSF worked closely with FAA in what was called the Pathfinder 
program try to get out there and determine what would work. I 
appreciate your willingness as a company and your personal 
involvement in that.
    One of the things that I think was determined there was the 
ability in discrete and understood airspace to be significantly 
remote in terms of operation and the space you were covering. 
Do you want to talk about that just a little bit, what you 
learned from that, the level of personal security and company 
security you feel like you achieved by looking at that part of 
what can happen in the future?
    Mr. Graetz. Yes, Mr. Chairman. It was a very educational 
process, and certainly we provided a lot of that information to 
our regulatory partner. It was a foundational set of research. 
If you focused the flights in the known flight corridors, areas 
that are highly mapped--we were very of what is around, over, 
and happening--it was that first fundamental safety layer that 
allowed our research partner, the FAA, to grant us the ability 
to do this.
    And to the other Senator's point earlier related to the 
telecommunications and need for broadband, the fact that we had 
existing infrastructure that would service that right-of-way 
and help us operate our rail network, it was naturally inclined 
to support long-range aircraft operations.
    And so we ultimately learned that if you can combine all of 
these systems together, there is a way to fly safely long-range 
flights, whether it is for precision agriculture, whether it is 
for any kind of linear asset inspection, if you have that 
operating capability. And I think the FAA will continue to 
leverage our data as we continue to fly to better refine that 
going forward.
    Senator Blunt. So for what you were doing there, was 
broadband access essential for that to work or just made it 
safer to work?
    Mr. Graetz. No. It is connectivity, communications 
connectivity. Secure communications connectivity was a critical 
element of our success. If we did not have that natural 
infrastructure that we utilize for all of our safety critical 
systems, it would have made it far more difficult and quite 
costly for us to bring that to bear.
    Senator Blunt. And this was generally infrastructure that 
you had put in place based on----
    Mr. Graetz. That is correct.
    Senator Blunt.--that Federal requirement?
    Mr. Graetz. No. Some of this is just the natural systems 
that we have in place to remotely operate our rail network from 
our central facility in Fort Worth. So whether it is dispatch 
radios or special signaling systems, that was there for the 
primary network. Certainly the positive train control 
investments helped as well. It was a good operating foundation 
for us to build upon.
    Senator Blunt. Right.
    Senator Sullivan.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    And, gentlemen, thank you for your testimony here.
    Mr. Lawrence, I wanted to focus on the FAA's implementation 
of a provision that is actually quite important to my state. In 
the 2012 FAA Modernization and Reform Act, Congress directed 
the FAA to designate permanent areas for research and 
commercial small UAS use, including kind of 24-hour ops or 
potential over the Arctic and the Arctic Ocean without regard 
as to whether the UAS is a public, civil, or model aircraft and 
to establish coastal launch sites and corridors to facilitate 
ingress and egress from those areas.
    You know, I know there has been a lot of discussion here on 
rural communities. We are probably the most extreme rural 
community in the Alaska. And yet, these are really important 
areas that are hard to reach. So UAS systems are particularly 
relevant and have enormous potential and future in my state.
    What has the FAA done to meet this statute, which was 
passed 6 years ago?
    Mr. Lawrence. Yes, Senator. So thank you for highlighting 
that one.
    It has been a long time since that was put in place, and we 
reacted almost immediately. In that very year, we had the 
initial authorizations in the Arctic going. And there have been 
successes almost every single year of operations in the Arctic, 
as you described, since the 2012 Act. They continue still 
today. We have now charted areas where you can have regular UAS 
operations. They are actually showing on some of our charts.
    I think one of the things you have highlighted is that the 
actual instructions on how you conduct those operations are 
contained in individual certificates of operations for the 
individual application. So maybe it is not as widely known or 
available.
    I would love to follow up with some additional information. 
We have several of the lists from 2013, 2014, and 2015 on our 
website where it lists the operations that have been ongoing. 
And maybe it is due for a refresher so we can let everybody 
know that those are still available and how you can take 
advantage of operations in the Arctic.
    Senator Sullivan. Yes. Actually I would very interested in 
following up because kind of reviewing it before this hearing, 
I got the sense that there was a lot of things that were not 
implemented or designated, and the statute actually required 
that to happen within a year of the entry of force. So it would 
be actually very useful for you and my office to sit down and 
run through exactly what you are talking about. For example, 
the ingress and egress corridors. I am not familiar with 
whether those have been permanently established.
    Why do we not do this as opposed to spending time in this 
hearing? If we can get with you after this hearing to go 
through in minute detail what has actually happened in response 
to that 2012 law, that would be very helpful.
    Mr. Lawrence. We would appreciate that.
    Senator Sullivan. OK.
    Let me just ask another one related. Facilitating the test 
sites' efforts to develop the methods and data the FAA needs to 
safely integrate the UAS system into the national airspace. How 
are you doing that, and how is that going? And are there 
particular areas of the country where that has made more 
progress or less that you are focused on?
    Mr. Lawrence. The test sites have evolved over the years. 
One of the things that we found with the establishment of the 
test sites were that a lot of the individual companies who we 
thought might take advantage of the test sites chose to do 
their own research in their own areas. And so the test sites 
have evolved to doing a lot more academic and general research, 
and we have been supporting them through--particularly, NASA 
has been using every single one of them in the UTM research.
    And as I mentioned earlier, we are seeing a lot more 
activity in developing standards and equipment that is outside 
of the FAA needs. You know, FAA sets the standards for a pilot 
or the minimum operation, but now you go into a police 
department or a fire department saying, what kind of equipment 
do I need and what kind of standards do I need for inspecting a 
building that is on fire? How do I respond to searching for a 
lost child or what are those procedures? What is the right 
equipment for that? And the test sites have really stepped up 
to providing that information and helped develop those 
standards. And the international standard bodies have been 
working with them very closely.
    Senator Sullivan. Thank you.
    Senator Blunt. Thank you, Senator.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman.
    Mr. Lawrence, we have one of those unmanned aircraft system 
test sites in New Mexico at New Mexico State University. We are 
very proud of it. And I was just wondering if you could talk 
about what are the future roles does the FAA see for the seven 
unmanned aircraft systems test sites?
    Mr. Lawrence. Thank you, Senator.
    As I mentioned in the previous discussion, we are really 
focused on using the test sites to support industry needs at 
this point. More and more, they are taking on these additional 
uses for UASs that are beyond the basic regulatory needs of the 
FAA but very much needed for the full integration and the full 
safe use of UASs. So we see those expanding more and more 
particularly in the area of UTM systems and, as I said, in 
helping first responders and just really what are the testing 
standards for this equipment and how best to use it, kind of 
like the Consumer Reports approaches.
    Senator Udall. Thank you for that answer.
    Mr. Graetz, I am happy that Clovis, New Mexico is the 
testbed of some of your beyond visual line of sight flights. 
Can you speak to the advantages of this location over others?
    Mr. Graetz. Sure. A great question, Senator. And we are 
very proud of our efforts in your state as well.
    The line that runs between Belen, New Mexico and Clovis, 
New Mexico--many people even do not know where those are at--of 
course, very rural, and it is also a critical part of our 
transcontinental freight network. So it gave us an opportunity 
to generate significant amounts of data that would help us 
research a safety case. But in addition to that, it is also a 
very difficult area to fly. So we had to prove that our systems 
could operate in the extreme temperature swings of that state 
and also the winds that you are all too familiar with. And then 
also near Clovis, New Mexico, the proximity of the Air Force 
base there and the different types of airspace also were 
advantageous for both BNSF and FAA to research in. So combining 
all those factors together, it was a natural place to test this 
type of operation, which of course they are in the air today.
    Senator Udall. Great. Thank you. And those winds, by the 
way, are up pretty heavy right now, as you can imagine, in the 
whole area.
    To Mr. Graetz also and Mr. Lawrence, in light of BNSF's 
extensive and unique infrastructure to support beyond the 
visual line of sight flights, do you envision proponents 
outside of these communication technology corridors conducting 
flights? Mr. Lawrence, maybe you start on that one.
    Mr. Lawrence. Yes. We envision that this will continue 
greatly. There are two key things that BNSF is helping us with, 
and that is understanding the needed communication network as 
was highlighted and also the detect and avoid needs, what 
equipment needs to be on the aircraft and what can be managed 
from systems on the ground.
    As we better define these--and I think we are getting very 
good at defining what the actual needs are--we are going to see 
an explosion of operations beyond line of sight.
    Mr. Graetz. And I can echo those sentiments.
    I think what we developed is a series of building blocks, 
an ecosystem of technology, if you will, that can be adapted to 
other linear corridors, but also the fundamentals of that can 
be adapted to other operations as well.
    Senator Udall. And, Mr. Graetz, are you able and willing to 
provide support for other industries seeking to expand their 
beyond visual line of sight flights?
    Mr. Graetz. All the results of our efforts are ultimately 
in the public record. So if somebody wanted to duplicate our 
success working with the FAA, they would be able to essentially 
gather that data from the FAA.
    Senator Udall. Yes, that is good. That is good.
    And to all the witnesses, what are your three greatest 
impediments to accomplishing your goals, programs, and 
objectives in the national airspace system with unmanned 
aircraft systems?
    Senator Blunt. This is one that all the witnesses can 
answer in the next 30 seconds.
    [Laughter.]
    Senator Udall. Quick answers here, as the Chairman has 
said.
    Mr. Wynne. Education, as I mentioned earlier in my 
testimony. Speed. Speed to market is very, very important. We 
have tremendous opportunities. And diversity. We have a very 
diverse community. And making sure that we are cloud ready.
    Senator Blunt. If anybody wants to respond for the record, 
you can.
    Senator Inhofe, followed by Senator Lee. Thank you, 
Senator.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Mr. Lawrence, nice to see you again.
    For the benefit of our Chairman and other members of the 
Committee, we have spent some time, quality time, in Oshkosh. 
This year will be my 41st consecutive year to be at Oshkosh. 
You have not been there quite that long, but nonetheless, I 
could never have done without your assistance.
    I would kind of like to know. Several of us who came in 
late were over there at this big thing that we had on Niger in 
the Armed Services Committee. And so I am kind of walking into 
this thing not knowing what you have covered and what you have 
not.
    I understand that tomorrow is the day that an announcement 
is going to be made. Explain to me what the announcement is 
going to be, not necessarily who is going to be announced, but 
what it is all about because we were very interested in 
following this real close from a GA perspective.
    Mr. Lawrence. Well, thank you, Senator. And it is only 
going to be my thirty-eighth year. So hopefully I will catch up 
with you here.
    Senator Inhofe. I hope you do not.
    [Laughter.]
    Mr. Lawrence. The integration pilot program--we are very 
much looking forward to that announcement tomorrow and getting 
actively working in that program. And we see it as key to 
working with the local communities. That is one of the things 
we are really looking forward because operations--just studying 
the operations from a research standpoint is one thing, but how 
they interact with the local community is key to us. And we are 
really looking forward to getting those operations going in the 
local communities and learning from them what is the local 
citizens' response to those operations.
    Senator Inhofe. Give an example of what type of a----
    Mr. Lawrence. So let us take package delivery. It was 
brought up earlier. So if we have package delivery and they are 
being delivered in people's neighborhoods, in their backyards 
and their front yards, how does that community respond to that? 
Do they want them at all hours of the night? Do they want them 
flying over the schools? Do you want them delivering at the 
park? Should it be in the front yard? Should it be all hours of 
the day? These are all the things that we are going to find out 
on how these systems interact with the local community and 
whether they want those services.
    Senator Inhofe. So they are going to be actually making 
those determinations just trial and error out there with pilot 
programs. And how would you envision that the FAA and the DOT 
using these pilot programs to obtain the needed data to enable 
more informed drone rulemaking?
    You know, we have had some experience already in this. I 
was involved in a concern about the pipelines, obviously being 
able to accomplish some things much more economically and more 
thoroughly and all that. But do you think it will help both the 
DOT and the FAA in their rulemaking?
    Mr. Lawrence. Yes, Senator. One of the things that I am 
really proud of that is different in this project that I have 
not seen previously with the FAA pilot projects is that we have 
assigned subject-matter experts specifically to work on each 
one of these teams, and their sole job is to take the lessons 
learned and normalize it into our policies, our procedures, and 
our rules. So this is unique that we are having a full-time 
data group, not just about how many hours something flies, but 
actually accumulating that information and looking across all 
our policies and procedures and other agencies and what 
Congress may want to know and gather that information, write it 
up, and make it available to others. And those dedicated 
resources to this program I think is what makes it very much 
unique.
    Senator Inhofe. Well, that is good.
    Mr. Zuccaro, you and I have visited before, and you have 
highlighted the need for FAA to maintain preemptive authority 
and regulate the Nation's airspace and not allow a patchwork of 
rules by multiple authorities to try to put these things 
together. How does the Federal management of our nation's 
airspace provide greater safety for manned and unmanned 
aircraft, especially aircraft that operate in lower altitudes?
    Mr. Zuccaro. That was a great question and an important one 
to us.
    Safety is the number one priority for everybody. And the 
bottom line is without standardization with a patchwork with 
different levels of expertise applying the rules and 
regulations and the inability really to coordinate thousands of 
potential rules and regulations, nobody really knows what they 
are flying into. And the standards are different for different 
people. And that really just creates a disconnected operating 
environment that just kind of pleads for a safe operating 
environment because you are not producing one in that manner.
    As I mentioned in my testimony, if an average aircraft--and 
I can use the helicopter as an example because our members are 
now transitioning their missions over to UAS. So today we might 
do a pipeline patrol that will run across 30 municipalities and 
3 states. Tomorrow we might be doing that with a UAS. And how 
do we know with any level of certainty that the standardization 
is the same? It is not going to be. Everybody is going to apply 
different standards. They are going to have different wishes, 
desires to their particular municipal boundaries. And that to 
us, it does not make any sense when we have the safest airspace 
system in the world right now under a singular regulatory 
authority that has created the standards that keep us all out 
of trouble.
    Senator Inhofe. Yes, well, that makes sense.
    Mr. Chairman, I just regret that none of my Committee was 
able to be here during this, and I am going to follow through 
to try to become an expert. So I look forward to tomorrow and 
see what happens. Thank you.
    Senator Blunt. Well, thank you, Senator. And there will be 
time for questions for the record as well. We have had great 
Committee participation today.
    Senator Lee.

                  STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee. Thank you, Mr. Chairman.
    Thanks to all of you for being here.
    Mr. Lawrence, does the FAA continue to recognize the 
inherent authority of States and local governments to impose 
reasonable time, place, and manner restrictions as it 
implements its UAS integration pilot program and future drone 
regulations?
    Mr. Lawrence. So the integration pilot program, Senator, is 
structured to learn about time, place, and manner restrictions 
and how they may be best applied. One thing that I can 
certainly acknowledge that--you know, we have been through this 
on airports for many, many years. The airport on the ground 
is--the zoning authority is up to that local jurisdiction, 
whether that be the State or the county or the city. We have 
acknowledged that and we have lived with that for many years. I 
think we are just redefining, now that we have more and more 
operations at lower altitudes, how is that interaction going to 
work and how do existing rules apply to these new operations. 
So, yes, we think the integration pilot program will assist us 
in learning how the existing rules and structures apply to 
these new operations.
    Senator Lee. So it sounds like what you are saying is FAA 
continues to recognize the inherent authority of states and 
local governments to do this, but it might turn on the word 
``reasonable,'' what is reasonable. There are certainly 
circumstances, are there not, where state and local regulation 
is appropriate?
    Mr. Lawrence. We believe that it is the FAA's 
responsibility to manage the national airspace system as a 
whole and, as has been mentioned by this panel, to ensure that 
that is done in a safe way. We have always accommodated needs 
as necessary for local communities. I think a good example of 
that is emergency response. A sheriff today has the ability of 
contacting the FAA and saying they need to close off operations 
in a particular area because of an accident or whatever it may 
be, and we take that action in order to create that safe aerial 
environment for that sheriff to respond to their needs. We see 
those types of interactions continuing, and we expect the IPP 
program to help us learn how those interactions should continue 
in the future.
    Senator Lee. So in a sense you are saying there is not 
inherent authority on the part of State and local governments 
to impose these. If that is what you are saying, how do you 
reconcile that with the idea that states and local governments 
generally do have power, consistent with their police power 
generally, to protect the health, safety, and welfare of local 
populations on things that are occurring locally?
    Mr. Lawrence. So, Senator, as an aviation expert, I am 
going to defer some of this to our Department of Justice and 
our attorneys who know more about the laws and how they 
specifically apply.
    I look at it from a practical standpoint with the 
integration pilot program. It is our job to manage that 
airspace. It is our job to understand how these operations will 
interact in those communities, provide that information, work 
with those local communities, and then make that information 
available to the legal experts that then understand what is the 
right framework to develop and who has the specific authorities 
over any particular given operation in time, place, or manner.
    Senator Lee. OK. And to the degree that you are not 
recognizing this inherent authority, do you have the human 
resources necessary to deal with all the requests that are 
coming in and that will continue to come in, I assume at an 
even more rapid pace, with a growing number of requests for the 
imposition of temporary flight restrictions?
    Mr. Lawrence. Thank you for highlighting that issue. It is 
a stress now. As I mentioned in my opening remarks, we have 
imposed hundreds of restricted areas today already to protect 
critical national infrastructure as has been designated by our 
security partners. That is a significant resource draw, and we 
are looking at how we can automate those systems and build it 
into a UTM-like system. As I mentioned, ID is the next thing 
for our UTM systems, and then we look at dynamic airspace 
management. We feel that is critical. And that ability to build 
into an information system where we can adjust the airspace 
needs, as appropriate, in as automated of a fashion as 
possible.
    Senator Lee. Finally, what is the FAA doing to facilitate 
competitive markets in the drone space and to reduce regulatory 
barriers to entry?
    Mr. Lawrence. Again, we believe we always work to create a 
regulatory environment that is appropriate, that balances the 
needs and expectations of the public for safety of aerial 
operations. So we apply our safety continuum and apply just the 
amount of rigor of oversight as necessary to ensure the safety 
of those operations.
    Senator Lee. Thank you. I see my time has expired.
    Senator Blunt. Thank you, Senator Lee.
    Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    There is a Dickensian quality to drones. They are the best 
of technologies and the worst of technologies simultaneously. 
They can enable. They can ennoble. They can degrade. They can 
debase. They just await human beings animating them with the 
values that we want to use them. Right? So that is always our 
challenge because these eyes in the sky could become spies in 
the sky, gathering data about all American families. And what 
we have to do then is decide what are the values that we are 
going to apply to that as these unknown drone operators now 
have used this technology to assemble profiles perhaps of 
families in their backyards, et cetera.
    So what are the standards for the retention of that 
information? There is sensitive information collected through 
facial recognition devices, infrared cameras, heat sensors, 
GPS, and automated license plate readers. Drones could use 
facial recognition to identify everyone walking on main street 
and selling that geo-location information to advertisers. It 
could use plate readers to know everyone who visits a health 
clinic and selling that sensitive information to insurance 
companies. And in the wake of the Facebook/Cambridge Analytica 
scandal, the American public wants robust privacy protections, 
not voluntary guidelines.
    Mr. Lawrence, last year you testified that there are no 
Federal rules in place requiring commercial and government 
drone operators to abide by baseline Federal privacy 
protections, including the collection, retention, and sale of 
personal information. Instead, the FAA was working closely with 
the Drone Advisory Committee and the NTIA on voluntary best 
practices.
    So voluntary best practices are the same hands-off approach 
applied to companies like Facebook and Cambridge Analytica. We 
just rely upon their good faith. But we really know what 
voluntary practices really mean. Consumers cannot say no, 
cannot stop, cannot say delete, change, or protect any of the 
most sensitive information. They are absolutely powerless under 
voluntary standards.
    Congress gave the FAA the obligation to integrate drones 
into the national airspace, and while safety is the FAA's 
primary mission, privacy cannot be an afterthought.
    So, Mr. Lawrence, is it the FAA's position that voluntary 
best practices will give the American public reasonable control 
over their sensitive information, where they shop, where they 
live, where they travel?
    Mr. Lawrence. Senator, I appreciate the subject being 
highlighted again, as we do believe that privacy is a very 
serious subject.
    Senator Markey. Will voluntary standards work in your 
opinion?
    Mr. Lawrence. It is not the FAA's mission or our direction 
to determine what data privacy issues need to be regulated. We 
are in that support role, as you highlighted, to the Department 
of Commerce and NTIA and through some of our programs like our 
integration pilot program----
    Senator Markey. Well, here is the problem, Mr. Lawrence. 
The Congress gave the FAA the directive to integrate drones 
into the national airspace, and privacy has to be a factor. 
Consider that the Department of Education has to protect 
student privacy. The Department of Health and Human Services 
has to protect health records. The Department of the Treasury 
has to protect financial information. And despite each of these 
agencies having primary missions separate from privacy, they 
have to walk and chew gum at the same time.
    So would the FAA support legislation which provided you 
with the authority you say you lack in order to protect the 
privacy of Americans?
    Mr. Lawrence. The FAA looks at it as our primary position 
is to maintain the safety of the airspace.
    Senator Markey. And I appreciate that. As I said, the same 
thing is true in education, health care, Treasury cases. They 
all have primary missions, but they also protect privacy.
    Mr. Lawrence. And we have several programs, and I wanted to 
highlight our working with local communities and our 
integration pilot program----
    Senator Markey. Is it all voluntary? Is any of it 
mandatory?
    Mr. Lawrence. We believe that data will inform this body 
and others on how best--what laws and regulations----
    Senator Markey. Is it the FAA's position that voluntary 
best practices will prevent commercial entities from selling or 
sharing sensitive information they collect about individuals?
    Mr. Lawrence. As I highlighted, it is not the FAA's 
position to state what the effectiveness of those may be 
because our expertise is in the safety arena.
    Senator Markey. Yes. And last year, you testified that the 
FAA does not have an easily searchable website detailing when, 
where in the United States, and for what purposes each 
commercial and government drone is operating. Is it the FAA's 
view that such a website would not provide the American public 
with reasonable information about who is flying over their 
homes, schools, shopping centers, and what information is being 
gathered?
    Mr. Lawrence. That is one of the reasons why we believe ID 
is key to moving forward for both the safety and security 
reasons. We think remote identification will help address some 
of your concerns, and it certainly will address our safety 
concerns. That is a good example of a dual role of activities.
    Senator Markey. I think in safety, perhaps. But in terms of 
privacy, no, not at all.
    And so I just think your hands-off approach on privacy has 
to end. It is why I have introduced the Drone Aircraft Privacy 
and Transparency Act. There are going to be 7 million drones, 
commercial drones, sold in the United States by 2020. Just the 
privacy of Americans is at stake. We need to come together. We 
need to put together a policy or else we just keep repeating 
Facebook, we just keep replaying Cambridge Analytica. We 
pretend that bad things are not going to happen, and we know 
they are because in the hands of bad people, these technologies 
wind up compromising the privacy of individuals.
    Senator Blunt. Thank you, Senator Markey.
    I will say that I share some of Senator Markey's concerns 
about privacy here, whether it is the EPA flying over people's 
farmland or a drone flying over people's back yards. This is an 
area where Senator Markey and I both have concern.
    And I appreciate, Mr. Lawrence, your view that you are 
trying to assemble right now municipal concerns and other 
concerns and to see where that takes us. But I do think 
somebody--if not the FAA, somebody--is going to need to be 
concerned about the privacy aspects of drone activity. And, 
Senator Markey, this may be something you and I can work on 
together.
    Senator Markey. I think this is where the left and right 
come together.
    Senator Blunt. This would be an example of exactly that. 
After all these years, finding that spot where we might be able 
to have a joint purpose, this may be it.
    It was a great hearing. I hope you all appreciate how well 
attended it was and the diversity of the questions. I think we 
have a sense that this is a rapidly changing environment. How 
to pay for it, how to regulate it, all of those things are 
going to require more of our time and more of your answers. But 
it was a great panel today.
    The hearing record will remain open for two weeks. During 
that time, Senators are asked to submit their questions for the 
record. Upon receipt, the witnesses are requested to submit 
their written answers to the Committee as soon as possible.
    Thanks again to the witnesses.
    This hearing is now adjourned.
    [Whereupon, at 11:55 a.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. Roy Blunt to 
                             Earl Lawrence
    Question 1. Do you believe the current UPP timeline and the work on 
the UTM are ambitious enough to meet the goals of safe integration of 
drones in our national airspace?
    Answer. The FAA is confident the UTM Pilot Program (UPP), one of 
the many industry and government initiatives that play a role in the 
safe integration of drones into our national airspace, will make 
significant strides towards the operational implementation of initial 
UTM capabilities. The UPP will highlight the initial integrated UTM 
ecosystem and UTM operational concepts and services. Such services 
include the Low Altitude Authorization and Notification Capability 
(LAANC), remote identification, dynamic airspace management 
capabilities, and the collaborative sharing of intent and flight 
information between UAS operators, the FAA, and other UTM stakeholders.

    Question 2. Can you remind the Committee of the current status of 
the UTM and what additional UTM capabilities we will see this year and 
into next year?
    Answer. The FAA continues to participate in NASA's UTM research. 
This work is developing a suite of products, not all of which directly 
support the FAA's management of the airspace, but meet the needs of 
drone operators to conduct their operations. The FAA is currently 
deploying the technologies needed for its role in the UTM, including 
the Low Altitude Authorization and Notification Capability (LAANC), 
remote identification, and dynamic airspace management capabilities. 
Over the next year, the FAA will continue to develop a proposed rule 
for remote identification requirements for UAS. This proposed rule is 
essential to enable the safe integration of drones into our national 
airspace. In addition, the FAA will continue to work with NASA and 
industry representatives to address the UAS Service Supplier network 
requirements and to establish an interoperable system that is the core 
of the UTM concept.

    Question 3. Mr. Lawrence, the FAA has been directed by Congress and 
the White House to proceed fairly swiftly on integrating drones into 
the National Airspace System. From my understanding, the FAA is 
responsible for three programs enabling drone integration and advanced 
operations: the Low Altitude Authorization and Notification Program 
called LAANC, the UAS Integration Pilot Program often called IPP, and 
the UAS Traffic Management Pilot Program often called UPP.
    As the lead person overseeing these activities, how are you 
ensuring efforts from the three programs are coordinated and leveraged?
    Answer. As the Executive Director of the UAS Integration Office, I 
meet regularly with other senior FAA executives to provide updates on 
our integration activities and ensure the appropriate attention and 
support is in place to accomplish our mission. As part of our UAS 
integration efforts, the FAA has conducted extensive internal planning 
activities to ensure that all of its UAS integration activities and 
programs are coordinated Agency-wide and support the milestones needed 
for our phased integration approach. In addition, our office 
coordinates with our interagency partners regularly through Research 
Transition Teams and the congressionally mandated UAS Executive 
Committee. Such coordination ensures results are leveraged both between 
programs and across the Federal Government.

    Question 4. I have been reading about several different counter-UAS 
technologies that could be deployed affordably and effectively around 
airports, but that some statutory provisions might be a barrier to use. 
Mr. Lawrence, can you shed some light on this?
    Answer. Numerous provisions of Title 18 of the United States Code, 
as well as the Pen/Trap Statute, the Wiretap Act, and the Aircraft 
Sabotage Act, limit the Federal Government's ability to evaluate, test, 
or deploy certain UAS detection and mitigation capabilities. Many of 
these were enacted long before advanced UAS technology became readily 
available. These legal constraints extend to most governmental 
entities--federal, state, local, tribal--and all private sector 
entities. The Federal Communications Act further limits the actions 
that may be taken by non-federal entities.

    Question 5. Does the FAA need some change in statute in order to 
use these technologies to mitigate the threat of UAS around airports?
    Answer. Based on the evaluations the FAA conducted in airport 
environments at Congress's direction, the FAA does not consider 
counter-UAS technology to be the best way to mitigate UAS around an 
airport from either a cost or performance measure. Since more than 50 
percent of incidents happen more than 5 miles from an airport, we 
believe registration and remote ID requirements for all UAS operators 
will be enable more effective detection and mitigation capabilities.

    Question 6. Mr. Lawrence, I have had some educational institutions 
outreach to my office regarding the May 2016 interpretation of 
educational use of drones. Apparently, shortly after the FAA issued its 
interpretation of educational use, Part 107 rules were released. I have 
been told that the May 2016 interpretation and guidance for educational 
use now has a ``red box'' on it indicating it is being updated.
    Can you share what is the FAA's position on educational use of UAS/
drones post the issuing of Part 107?
    Answer. The FAA strongly supports the educational use of drones. 
However, Section 336 of PL 112-95, the FAA Modernization and Reform Act 
of 2012, restricts the FAA's ability to provide more regulatory 
flexibility to facilitate recreational use of UAS. Currently, 14 CFR 
part 107 is the foundational regulation for flying a small UAS in the 
National Airspace System, including for educational use. Part 107 
created a UAS-specific Remote Pilot Certificate, the privileges of 
which include the ability for the remote pilot to supervise a non-
licensed operator flying a drone, as long as the remote pilot can 
retake operational control of the drone if needed for public safety. 
This allows educators with a part 107 Remote Pilot Certificate to teach 
and supervise students flying UAS. The FAA considers this provision the 
most appropriate to adequately support educators' ability to conduct 
drone education in schools.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                             Earl Lawrence
    Question 1. In the FAA Modernization and Reform Act of 2012 
(pertinent section copied on next page), Congress directed the FAA to 
designate permanent areas for research and commercial small UAS use 
over the Arctic Ocean without regard as to whether the UAS is a public, 
civil, or model aircraft and to establish coastal launch sites and 
corridors to facilitate ingress and egress from those areas. What has 
the FAA done to meet this statute?
    Answer. On November 1, 2012, the FAA released its Arctic 
Implementation Plan, signed by the Secretary of Transportation, to 
inform interested parties, operators, Federal agencies, and 
international communities of its plan to establish permanent 
operational areas and corridor routes in the Arctic for the operation 
of small Unmanned Aircraft Systems (UAS). Since then, the FAA has used 
existing processes to approve the use of UAS in designated areas of the 
Arctic. The FAA established 10 Coastal Launch Site along the coastline 
of Alaska from Kaktovik, near the Canadian border, to the Aleutians, 
all of which are published in the Supplement Alaska. A symbol for UAS 
activity has been charted for Oliktok Point. Procedures have been 
established for these locations, and a number of operations have been 
approved to inspect oil pipelines, roads, and equipment, monitor marine 
life, conduct ice surveys, and perform oil spill and search and rescue 
exercises.

    Question 2. How does the FAA intended to follow through on their 
legislative compliance and what is the time line the FAA plans to use?
    Answer. Establishing permanent ingress and egress routes from these 
sites to permanent areas for UAS operations amounts to restricting 
airspace, which would have a significant impact across a geographic 
area that relies heavily on general aviation for a variety of purposes. 
Segregating airspace in this manner would require a rulemaking effort, 
and also runs counter to the FAA's congressionally mandated direction 
to integrate UAS into the National Airspace System. In lieu of such 
steps, the FAA has established air traffic processes for authorizing 
Arctic operations, regardless of the type of operations being 
conducted.

    Question 3. What has been the delay on implementing these routes?
    Answer. Establishing permanent ingress and egress routes from these 
sites to permanent areas for UAS operations amounts to restricting 
airspace, which would have a significant impact across a geographic 
area that relies heavily on general aviation for a variety of purposes. 
Segregating airspace in this manner would require a rulemaking effort, 
and also runs counter to the FAA's congressionally mandated direction 
to integrate UAS into the National Airspace System. In lieu of such 
steps, the FAA has established air traffic processes for authorizing 
Arctic operations, regardless of the type of operations being 
conducted.

    Question 4 . How are you facilitating the Test Sites' efforts to 
develop the methods and data the FAA needs to safely integrate UAS in 
the National Airspace System?
    Answer. The Test Sites provide a vital resource for industry to 
innovate by offering services to conduct more advanced UAS flight-
testing, such as testing UAS detection technologies in airport 
environments, supporting NASA's UAS Traffic Management research, and 
using UAS in emergency response situations. Two of the Test Sites are 
part of the FAA's UAS Center of Excellence (COE) team, and are used by 
the COE to conduct flight-testing in support of its research. To help 
facilitate the Test Sites' efforts, the FAA has issued each Test Site 
nationwide blanket airspace approvals, and several have broad area 
approvals to conduct UAS operations and testing in large areas of 
airspace.

    Question 5. How do you ensure the safety of the National Airspace 
System while allowing the U.S.'s UAS industry to develop and invest in 
the U.S. through testing and operating in the National Airspace System 
instead of overseas where the regulations are more lax?
    Answer. The safety of the National Airspace System (NAS) is the 
FAA's top priority. To ensure the safety of the NAS, the FAA is taking 
an incremental approach to the integration of UAS into the NAS. As part 
of this integrated approach, the FAA uses existing regulatory 
flexibility, such as waivers and exemptions, to provide regulatory 
relief to facilitate advanced UAS operations when operators can 
demonstrate that their operation will not adversely affect the safety 
of the NAS.

    Question 6. How does the FAA plan to keep up with rapidly changing 
technologies in a time-frame that will satisfy the immediate industry 
needs?
    Answer. The FAA must develop a performance-based regulatory 
framework, which sets minimum safety requirements but does not dictate 
technology solutions, in order to keep up with this rapidly innovating 
industry. Part 107, which includes a performance-based waiver process 
to provide regulatory flexibility for more advanced operations, was the 
first step in this framework. Additionally, the FAA must automate its 
processes and procedures to the greatest extent possible in order to 
meet the volume demand for operations and aircraft. Some examples of 
necessary automation include UAS registration and the Low Altitude 
Authorization and Notification Capability (LAANC), which can issue near 
real-time authorizations to fly near airports at safe altitudes.

    Question 7. What components of UAS Traffic Management (UTM) are 
missing for a safe and effective system?
    Answer. NASA's UTM research is developing capabilities for not only 
the FAA, but also UTM operators and service providers. The FAA needs 
three main elements to support its airspace management role in a UTM 
environment: automated authorization capability (LAANC), real-time 
identification of aircraft in flight (remote identification), and the 
ability to manage time, place, and manner airspace restrictions 
dynamically. All three components are being deployed or developed 
already. Additional UTM components under development between NASA and 
industry, such as UAS Service Supplier network requirements, will also 
be needed, but do not support the FAA's UTM role.

    Question 8. Is the FAA considering specific technologies that they 
feel enable UTM or do they remain open to technologies that appear to 
work but are not yet part of the existing network of avionics & 
tracking?
    Answer. As technology development occurs so quickly, the FAA takes 
a performance-based approach to regulating UAS, rather than prescribing 
specific technologies that may become outdated and limit future 
innovation and safety advancements.

    Question 9. What Airspace Management and UTM technologies will law 
enforcement authorities have access to in order to ensure overall 
public safety?
    Answer. Remote identification requirements and an interoperable 
network are crucial components of UTM that will facilitate law 
enforcement authorities' ability to distinguish between authorized and 
unauthorized operators. Last summer, the FAA convened an industry 
committee, which included members of local and state law enforcement, 
to identify the needs of local law enforcement officials for a remote 
ID system and to provide recommendations on such a system. The FAA is 
currently working on proposed regulations based on this committee's 
report, which is available here: https://www.faa.gov/news/updates/
?newsId=89404

    Question 10. How can private industry best work with government to 
assist in the creation of a lasting framework?
    Answer. The FAA's mission is maintaining the safest, most efficient 
aerospace system in the world. We continue to encourage private 
industry to bring us applications for operations that focus on safety 
and include operational risk assessments and mitigation strategies. In 
addition, approving increasingly complex operations and working with 
industry partners who are actively involved in hazard identification 
and risk mitigation provides foundational input the FAA needs to 
develop flexible, performance-based regulations that support long-term 
innovation.

    Question 11. Is there a practical ``best'' government-run program 
for private industry to become a part of which a company could quickly 
apply that would aid in the progress of UTM?
    Answer. NASA is using an active partnership model in its UTM 
research and is always looking for additional industry partners to 
support its UTM work. We recommend contacting NASA's UTM team to get 
involved.

    Question 12. Has the FAA yet considered how private citizens can 
best work with authorities to report unlawful UAS activity that 
directly infringe upon their privacy?
    Answer. Local law enforcement, which has the authority to enforce 
local privacy laws, is typically in the best position to respond to 
unlawful UAS activity. There are no FAA regulations regarding drone use 
and personal privacy because these laws usually exist at the local or 
state level. The FAA is working with local law enforcement agencies 
across the country on how to identify unlawful or unsafe UAS activity.

    Question 13. Is the FAA planning on designing a framework of 
regulatory statutes that will educate and ultimately enable local law 
enforcement to Cite and/or Prosecute unlawful UAS operations?
    Answer. Local law enforcement has the authority today to prosecute 
UAS operations that violate local, state, or Federal statutes, 
including those regarding trespassing, privacy/peeping Toms, property 
damage, and reckless endangerment. The FAA relies on local law 
enforcement to report unlawful UAS activity through our Law Enforcement 
Assistance Program in order for the FAA to take additional civil action 
for Federal aviation violations. We are actively educating local law 
enforcement officials on their authorities and how to identify and 
report unlawful or unsafe UAS activity.

    Question 14. Is the FAA considering a position of education over 
enforcement regarding unauthorized UAS?
    Answer. Safety is always the FAA's top priority. We conduct safety 
oversight and enforcement based on our compliance philosophy, which is 
used to determine the appropriate response to regulatory violations 
based on the specific circumstances of the incident and the risk posed 
to the flying public.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Jim Inhofe to 
                             Earl Lawrence
    Question 1. Aviation stakeholders across the United States have 
been captivated by the innovation of unmanned aircraft technology and 
the role that it will play for the American economy. In response to 
local and national interest in unmanned aircraft technology the Federal 
Aviation Administration (FAA) has been proactive in finding 
opportunities to conduct research and find proper deployment 
environments for unmanned aircraft systems and technology.
    Today the FAA has the ability to accelerate the integration of 
unmanned aircraft systems through programs such as the Unmanned 
Aircraft System (UAS) Integration Pilot Program (IPP). The UAS pilot 
program will provide local and national interest from the UAS community 
the ability to provide information to the Department of Transportation 
and the Federal Aviation Administration as they develop ways to 
integrate unmanned aircraft systems into the National Airspace System.
    How do you envision the Department of Transportation and the 
Federal Aviation Administration using these pilot programs to obtain 
the needed data to enable more informed drone rulemaking?
    Answer. As outlined in the Presidential Memorandum, the UAS IPP is 
designed to enable state, local, and tribal UAS activities that will 
facilitate and accelerate UAS integration into the National Airspace 
System. A key element of this program is the collection of technical, 
operational, and other data (such as community feedback) for developing 
new or amended rules and related standards. Each of the selected 
participants will work with the FAA to develop a Concept of Operations 
(ConOps) for their proposed operations, which will include data 
collection requirements identified by the FAA as necessary to support 
UAS regulatory development. The Memorandum requires the Secretary to 
submit an annual report to the President with interim findings and 
conclusions and to submit a final report with findings and conclusions 
within 90 days of the Program's termination.

    Question 2. The Federal Aviation Administration's (FAA) vision for 
fully integrating Unmanned Aircraft Systems (UAS) into the National 
Airspace System (NAS) will require harmonizing UAS movements with 
manned aircraft occupying the same airspace. In order to harmonize the 
use of unmanned and manned aircraft systems experts from industry, 
government, and academia must come together.
    We have seen the benefit of industry collaboration through 
agreements such as the Pathfinder Initiative which has allowed the FAA 
to gather vast amounts of data on issues such as the operations of 
drones beyond the visual line of sight. The collection of this data and 
operation experience will be very useful as UAS operations continue to 
expand.
    What is the next step for FAA moving forward with a Part 107--like 
rule to enable widespread drone operations beyond the visual line of 
sight?
    Answer. Part 107 has enabled routine visual line-of-sight UAS 
operations in low-risk environments on the basis that UAS being flown 
in these circumstances present a low public safety risk. More complex 
operations will require updates to the existing regulatory structure 
governing the National Airspace System to reflect a new category of 
aircraft. As an example, the existing framework assumes an on-board 
pilot, who can see and avoid other aircraft in flight. An update is 
needed to make such requirements performance-based, which will enable 
other methods, such as detect and avoid technology, to meet these 
safety standards.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                             Earl Lawrence
    The lack of any mandatory black box on drones to help with 
investigations. Should there be an accident that causes injury or loss 
of life due to a collision between a drone and another aircraft, 
authorities will investigate, but they may turn up little information.
    There is no ``black box'' or flight recorder on board a drone that 
could give us valuable evidence of its operation, control, or flight 
path. There might be some ways of tracking activity, but little that is 
very robust.
    Question. Should Congress require that black box-like technology be 
installed on drones and UAS?
    Answer. The vast majority of non-toy drones, especially those with 
cameras, already incorporate the technology needed to identify and 
track the drone in flight. This data is typically either uploaded to a 
cloud-based server or maintained by on-board hardware. In the only 
verified collision between a manned aircraft and UAS (Sept 21, 2017), 
the NTSB was able to recover relevant data from the UAS, including its 
flight path, altitude, and time parameters (see here). The full NTSB 
report is available here. Additionally, the FAA is working on remote 
identification rules to facilitate this type of networked data 
collection in the future.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Earl Lawrence
    Question 1. I appreciate the work of the FAA on unmanned aircraft--
particularly partnerships with New Mexico State University in Las 
Cruces. However, I am concerned that hobbyists do not know about the 
resources available to determine if areas are safe to fly their drones. 
Last week, fire suppression efforts by the Santa Clara Pueblo were put 
on hold during a forest fire in New Mexico because a drone had entered 
the airspace. I am aware that the FAA has created a B4UFLY App that 
includes sensitive and critical infrastructure in the data and that you 
are working to include ``non-federal'' entities in the data set. 
However, what is the ability for tribal entities to restrict access 
over culturally sensitive areas? Has there been tribal consultation and 
engagement on this matter?
    Answer. The Federal Government retains the ability to restrict 
aircraft from flying in certain airspace. However, local government 
entities have traditionally retained the ability, through zoning laws 
or policies, to determine where aircraft can take off and land. The UAS 
Integration Pilot Program is designed to facilitate engagement between 
the Federal Government and tribal entities on these types of issues, 
and we look forward to working with the Choctaw Tribal Nation as part 
of the program.

    Question 2. Would the FAA consider granting blanket waivers to the 
UAS Test Sites for expanded ``Beyond the Visual Line of Sight Flight'' 
testing, swarm testing, and the like if appropriate safety measures are 
employed?
    Answer. The UAS Test Sites have several regulatory options to test 
UAS, including flying public aircraft operations or experimental 
flights under 14 CFR part 91 or flying civil operations under 14 CFR 
part 107. The FAA issues beyond visual line of sight (BVLOS) approvals 
on a case-by-case basis, depending on the Test Sites' chosen regulatory 
framework. BVLOS approvals are currently being issued regularly to 
operators who can demonstrate the necessary risk mitigation 
capabilities. However, issuing blanket approvals for BVLOS operations 
would require segregating large volumes of airspace for these 
operations, necessarily keeping other aircraft away from these areas 
and contradicting the FAA's objective to integrate UAS. Additionally, 
blanket approvals would require the FAA to limit the operational scope 
of the approval in order to address the highest risk aspects across all 
scenarios. By approving operations based on specific operational 
circumstances, the FAA can issue approvals with the greatest 
operational flexibility while maintaining the availability of navigable 
airspace for all NAS users.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                             Earl Lawrence
    Question 1. What requirements is the FAA considering with respect 
to detect and avoid technology for small drones, especially in non-rule 
airspace, so as to avoid manned aircraft which in some cases will not 
be equipped with ADS-B?
    Answer. FAA regulations apply to the entire National Airspace 
System, including airspace where no air traffic services are provided 
(uncontrolled airspace). There is no ``unregulated airspace'', even in 
areas where there are no ID equipage requirements. Since all small 
drones flying under our current regulatory structure must fly within 
visual line-of-sight, detect and avoid technology is regulated in the 
same manner for unmanned aircraft as it is for manned--the pilot in 
command is responsible for avoiding other aircraft. To be approved for 
beyond visual line-of-sight UAS operations, an applicant must be able 
to demonstrate how they will maintain separation from other aircraft. 
The range of technologies they use depends on their application.
    There is continued concern about operators who are not in 
compliance with regulations, which is why the FAA continues to advocate 
for the ability to regulate all aircraft, and to impose remote ID 
requirements for all NAS users. The specific requirements the FAA 
imposes will be included in its proposed rule for remote 
identification--see RIN 2120-AL31.

    Question 2. What role is FAA playing to support the development and 
certification of technology that would enable small drones to detect 
aircraft without a transponder or an ADS-B out transceiver?
    Answer. The FAA is facilitating testing of detect and avoid 
equipment and systems through research agreements and the issuance of 
waivers and exemptions. For example, the FAA recently issued approval 
to NASA to fly an Ihkana UAS BVLOS through controlled airspace without 
a chase plane, the first such operation using the detect and avoid 
minimum performance standards developed by RTCA Special Committee 228. 
For more information, see NASA's press release.

    Question 3. Can you assure the Committee that the FAA will be 
transparent in its data collection with respect to the UAS Integration 
Pilot Program (UAS IPP) and that the proposed rules and requirements 
that will ultimately allow operations, such as package delivery and 
infrastructure inspections, will go through an open and transparent 
process?
    Answer. As outlined in the Presidential Memorandum, the UAS IPP is 
designed to enable state, local, and tribal UAS activities that will 
facilitate and accelerate UAS integration into the National Airspace 
System. A key element of this program is the collection of technical, 
operational, and other data (such as community feedback) for developing 
new or amended rules and related standards. Additionally, the 
Memorandum requires the Secretary to submit an annual report to the 
President with interim findings and conclusions, and to submit a final 
report with findings and conclusions within 90 days of the Program's 
termination. The FAA's UAS IPP Team intends to share data publicly to 
the extent possible, with appropriate legal exceptions for intellectual 
property, privacy, or other protected data.
    Additionally, any rulemaking that results from the IPP will be 
conducted in accordance with applicable statutes and regulations in an 
open and transparent process that includes public notice and 
opportunities for comment.

    Question 4. What is the timeline for evaluating the results of the 
IPP? Will the FAA wait until the IPP is completed or will interim 
results be used to inform the broader FAA policies on drones? Is it the 
FAA's position to first complete the UAS IPP study before making 
recommendations to Congress on what laws need to be changed or 
implemented?
    Answer. The FAA will evaluate data and results from the IPP on an 
ongoing basis. The results of testing will help support a phased 
approach to expand operations throughout the program. Safety analyses 
for expanded authority will be based on results from previous testing, 
and data will be used to approve waivers and exemptions. The FAA will 
draw upon the results of the program to inform any technical assistance 
requests from Congress and to inform broader FAA policies on UAS 
operations.

    Question 5. What is your data showing with respect to enforcement 
efforts and compliance by remote pilots flying drones under Part 107 
requirements? How is the FAA currently conducting this oversight and 
what are your plans going forward to ensure compliance?
    Answer. The FAA proactively manages risk through agency safety 
management practices and in response to real world risk in the National 
Airspace System (NAS). Hazards and controls are monitored against risk 
acceptance criteria via monitoring of accidents reported in accordance 
with part 107
    To date, we have taken 379 compliance actions with 14 CFR part 107 
operators, most of which were in the form of counseling or on-the-spot 
corrections. Six out of 1,877 remedial training compliance 
recommendations were for part 107 operators. In addition, over the last 
six quarters we have recorded a total of 277 UAS violations, covering 
both part 107 and non-107 UAS operators. FAA aviation safety inspectors 
are required to conduct compliance oversight activities for unmanned 
aircraft as they do for manned aircraft. Oversight activities are 
prioritized according to risk assessment evaluations.

    Question 6. The FAA has approved a number of waivers under Part 107 
for beyond visual line of sight drone operations. What has the agency 
learned from these operations to date? Is the FAA planning to issue new 
rules or guidance related to beyond visual line of sight operations?
    Answer. We have learned that there is currently no technology that 
can provide a detect and avoid capability with a high degree of 
confidence. Mitigations of risk are provided by procedures, which can 
differ depending on the particular operation. Currently, very few 
potential operators have the ability to meet the minimum safety 
requirements to conduct BVLOS operations. The key areas that industry 
is still working on are: (1) detect and avoid procedures and 
capabilities; (2) the ability to track their aircraft on its flight 
path and know its location at all times; and (3) developing the 
required equipment/procedures to avoid obstacles, mitigate non-
participating aircraft, and respond to changing weather conditions. The 
FAA has issued several BVLOS waivers to operators who have demonstrated 
they are able to meet these safety thresholds. A remote identification 
network and standards will facilitate waiver issuance in the future. In 
the meantime, the FAA is continuing to educate the UAS operator 
community regarding the safety information applicants must provide to 
get BVLOS approval.

    Question 7. The FAA Extension, Safety, and Security Act of 2016 
(Public Law No: 114-190) directed USDOT and the FAA to implement a 
mechanism for critical infrastructure owners and operators to obtain 
UAS flight restrictions in close proximity to their facilities (Section 
2209). This is an important solution to concerns raised not only by 
Federal agencies, but also state and local governments. The deadline 
for implementation was January 2017, but this important framework in 
not yet in place. Can you update the Committee on where things stand 
regarding this policy directive?
    Answer. In the short-term, in order to meet the intent of section 
2209, we used existing authority (14 CFR Sec. 99.7) to put airspace 
restrictions over security sensitive sites identified by Federal 
security agencies (DOD, DOE, DOI). We have issued hundreds of these 
flight restrictions through a manual process that is labor-intensive. 
Due to the sheer volume of these requests, we must take a risk-based, 
efficient approach to assessing and responding to requests. In the 
long-term, the DOT and the FAA are working to propose a rule 
implementing section 2209.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                             Earl Lawrence
    Privacy. While the benefits of integrating UAS into our airspace 
cannot be understated, it is clear that some issues remain with regard 
to safety and privacy.
    People in my state and across the country have legitimate concerns-
which I share-about how commercial and recreational use of drones might 
impact and impede their privacy.
    Question. What more can be done to ensure the voices of our 
constituents and state and local governments are heard at the Federal 
level when it comes to generating and implementing drone policies with 
regard to safety and privacy?
    Answer. The recently announced UAS Integration Pilot Program (IPP) 
is intended to foster a meaningful dialogue on the balance between 
local and national interests related to UAS integration. The IPP 
ensures that citizens and local authorities across the country have a 
voice at the table as we work towards integrating UAS into the National 
Airspace System (NAS).
    With respect to privacy concerns, the FAA has pre-emptive authority 
to manage the NAS safely and efficiently, but states and cities have 
the authority to exercise traditional police powers when it comes to 
privacy, security, and trespass concerns. The FAA is working with local 
law enforcement agencies on how to identify unlawful or unsafe UAS 
activity.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                              Brian Wynne
    Question 1. Mr. Wynne, in Mr. Lawrence's testimony about the Low 
Altitude Authorization and Notification Capability (LAANC) program he 
referenced that the FAA's partnership with industry in standing up 
LAANC and the initial stages of the UTM have been successful so far. I 
have been pleased to hear that. Mr. Wynne, what feedback have your 
members provided to you on their work with the FAA on LAANC and in 
general on working with the FAA on issues like a Part 107 waiver?
    Answer. The feedback from our members has been positive regarding 
the FAA's willingness to collaborate directly with the industry on 
LAANC and several other issues such as Part 107 waiver requests. Our 
members are proud to participate in initiatives such as the Drone 
Advisory Committee and the remote identification Aviation Rulemaking 
Committee to provide input to the FAA as we work to integrate UAS into 
the national airspace. At the same time, our members have expressed 
concerns with the FAA's Part 107 waiver application process, which can 
take up to 90 days for a decision. LAANC will address some of these 
delays, as it automates the application and approval process for 
requests to fly in controlled airspace up to 400 feet. However, there 
are some limitations to LAANC. Operational waiver requests--such as 
requests to fly at night or beyond visual line of sight--are still 
being processed manually. Meanwhile, the FAA advises operators to first 
seek an operational waiver before seeking an airspace authorization 
when both are needed.
    We understand the FAA shares these concerns and wants to fully 
automate all UAS processes, but the agency needs resources to properly 
update its IT infrastructure and enable greater automation. We have 
long advocated for the FAA to be appropriately funded, including having 
the necessary resources to modernize its IT systems.

    Question 2. As with all issues, how to pay for things becomes 
important. The Drone Advisory Committee met on March 9th to issue its 
final report titled ``Drone Integration Funding.'' In my quick review, 
this report makes recommendations about funding sources for the next 
three to five years, considers what activities should be prioritized, 
and who should be responsible for funding UAS integration activities. 
While the Drone Advisory Committee report referenced that government 
funding should play a role by using funding out of the Aviation Trust 
Fund, I am not certain this a long-term sustainable model given the 
predictions for explosive drone growth and the already constrained FAA 
budget. Mr. Wynne, the Report made several suggestions for sources of 
funding. Have the members of your association discussed how you think 
drone management and regulatory oversight should be funded?
    Answer. Yes, we have discussed how drone management and regulatory 
oversight should be funded. We believe the FAA needs to be 
appropriately funded through congressional appropriations to address 
costs associated with management and oversight of UAS in the national 
airspace. For its part, the UAS industry is ready to discuss how it can 
support an Unmanned Traffic Management System (UTM) for expanded UAS 
operations as the infrastructure needs come into greater focus and 
operators are permitted to fly beyond visual line of sight.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                              Brian Wynne
    The lack of any mandatory black box on drones to help with 
investigations. Should there be an accident that causes injury or loss 
of life due to a collision between a drone and another aircraft, 
authorities will investigate, but they may turn up little information.
    There is no ``black box'' or flight recorder on board a drone that 
could give us valuable evidence of its operation, control, or flight 
path. There might be some ways of tracking activity, but little that is 
very robust.
    Question. Should Congress require that black box-like technology be 
installed on drones and UAS?
    Answer. The UAS industry is already actively engaged with the FAA 
to establish remote identification and tracking standards that will 
help increase the visibility into UAS operations, control and flight 
paths. A notice of proposed rulemaking (NPRM) that will likely include 
remote identification requirements is expected in the coming months.
    AUVSI believes that all UAS operators--those flying for civil, 
commercial or recreational purposes--should comply with remote ID and 
tracking requirements. Establishing remote ID standards for all UAS 
operators and requiring they register with the FAA helps to enhance the 
safety and security of the national airspace. These important security 
measures will help pave the way for expanded UAS operations, including 
flights over people and beyond-line-of-sight operations.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                              Brian Wynne
    Question. Are small Unmanned Aircraft Systems--Class 1 and Tier 1 
and 2--FAA's greatest interest? Are there other sizes relevant to 
congressional attention?
    Answer. Given the rapid interest in and increase of small UAS in 
the airspace by both businesses and hobbyists, Class 1 and Tier 1 and 2 
UAS have been the primary focus of industry and the FAA.
    Small UAS have been a priority of the FAA since Congress passed the 
2012 FAA Modernization and Reform Act, which directed the agency to 
develop a national framework for the integration of UAS into the 
National Airspace System. On August 29, 2016, the FAA partially 
fulfilled that mandate with the implementation of the small UAS rule 
(Part 107). Part 107 applies to platforms weighing less than 55 pounds, 
and, generally speaking, operators need to fly under 400 feet, within 
visual line of sight and only during daylight hours.
    However, recognizing the need for a more flexible, risk-based 
approach to regulating UAS, the FAA also instituted a waiver process 
for UAS operations that go beyond Part 107, provided an appropriate 
safety case can be made. The waiver process allows for expanded 
operations, such as nighttime or beyond line of sight, with the 
approval of the agency. This waiver process is only applicable to UAS 
that weigh less than 55 pounds. If operators want to fly UAS that weigh 
55 pounds or more, they need to use the Section 333 exemption process, 
though the operating rules and aircraft requirements will be the same 
or similar to operators flying under Part 107.
    The industry's vision for full UAS integration includes UAS above 
55 pounds, and we urge the FAA to continue to move forward with 
rulemakings that can build upon existing regulations to safely 
integrate UAS--of all sizes, weights and capabilities--into the 
national airspace. By permitting operations of larger UAS that have 
capabilities to fly at higher altitudes and beyond visual line of 
sight, we can tap into the tremendous economic benefits that UAS will 
provide our country.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                              Brian Wynne
    Privacy. While the benefits of integrating UAS into our airspace 
cannot be understated, it is clear that some issues remain with regard 
to safety and privacy.
    People in my state and across the country have legitimate 
concerns--which I share--about how commercial and recreational use of 
drones might impact and impede their privacy.
    Question. What more can be done to ensure the voices of our 
constituents and state and local governments are heard at the Federal 
level when it comes to generating and implementing drone policies with 
regard to safety and privacy?
    Answer. While the Federal Government must maintain ultimate 
authority over the national airspace, it must also embrace the concerns 
of communities around the country and provide a pathway for state, 
municipal and tribal governments to collaborate with the FAA to address 
their unique concerns.
    On October 25, 2017, the Trump administration created the UAS 
Integration Pilot Program to provide state, municipal and tribal 
governments with an opportunity to shape a national policy framework 
for UAS without infringing on the U.S. government's jurisdiction over 
the airspace.
    Ten participants were selected in May 2018, ranging from a mosquito 
control division in Florida to the University of Alaska to the Choctaw 
Nation of Oklahoma. Each participant will provide critical research 
that will allow us to go above and beyond what is currently possible 
and give us a glimpse into what the future holds for UAS operations 
around the country. Importantly, participants will collect data that 
will help determine the best practices for coordinating state, local 
and tribal government input with the FAA to keep our skies safe going 
forward.
    The industry is excited to see these pilot programs progress, which 
will help chart a path forward for federal, state, local and tribal 
collaboration on UAS-related policy issues.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                           Matthew S. Zuccaro
    Question 1. Mr. Zuccaro, you mentioned that you have been involved 
in aviation for more than 50 years and that you have not experienced a 
more exciting watershed moment than the integration of drones into the 
national airspace. As this technology continues to grow in use, we know 
that we will need a state of the art unmanned traffic management system 
to safely enable operations within the national airspace. Based on your 
experience, can you share with the committee what you believe to be the 
additional infrastructure needs that levels of government and the 
private sector will need to consider?
    Answer. Our national airspace system (NAS) is the safest, most 
efficient system in the world. As we integrate new aircraft into the 
system, the additional infrastructure to accommodate these aircraft 
must preserve and maintain safety. UAS are aircraft and the fundamental 
requirements for all aircraft operating in the NAS is to have see and 
avoid capabilities. The overarching industry goal is to safely achieve 
Beyond Visual Line of Sight (BVLOS) operations which will enable a wide 
scope of operations for UAS. Detect and Avoid Technology is the single 
most important technology that needs to be deployed to enable BVLOS 
operations. Unfortunately, this level of needed capability to ensure 
safe operations within the NAS has not been implemented. The technology 
itself must be tested and approved by regulators and supported by 
industry, and it must not result in any form of airspace denial for 
current NAS operators. HAI fully supports the inclusion of UAS into the 
NAS but it must be done in a safe, well thought out manner with Detect 
and Avoid technology that is certified and fully functioning. Rushing 
the process and introducing technology with reduced capability will not 
work. Detect and Avoid Technology must be resolved so UAS operations 
can be safely integrated into the airspace.

    Question 2. Mr. Zuccaro, as has been referenced in testimony, a UTM 
is critical to help ensuring the safety of drones, helicopters, and 
airplanes sharing the same airspace. I read with interest your 
testimony on the importance of integrating all aircraft safely into the 
airspace. Your written testimony says, ``Operating any aircraft, manned 
or unmanned) should be considered a privilege, not a right.''. Can you 
share your suggestions on what requirements should be put in place? For 
instance, should licenses be issued at point of sale for a drone much 
like a VIN number and registration for an automobile?
    Answer. Just for clarity my testimony stated that ``Operating any 
aircraft, manned or unmanned, comes with a degree of responsibility and 
accountability to ensure safe operation''. As stated in my testimony we 
have successfully integrated numerous aircraft categories and classes 
safely into the national airspace, and we do not need to reinvent the 
wheel. UAS are the latest category of aircraft and as such should 
comply with the existing criteria tailored to their unique 
characteristics for certification and registration of the aircraft, and 
training, testing and certification of the pilot/operator. As is the 
case with manned aircraft, the FAA should have surveillance and 
regulatory oversite of UAS operations, both commercial and private/
recreational, under a specified set of regulations and recommended 
practices.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Jim Inhofe to 
                           Matthew S. Zuccaro
    Question. As a pilot, I always hear from the aviation community 
regarding problems with different FAA regions interpreting the same 
national standards and guidance coming from Washington. You have 
highlighted the need for the FAA to maintain preemptive authority to 
regulate the Nation's airspace and not allow a patchwork of rules by 
multiple authorities regulate--who, where and when a pilot can fly an 
aircraft or drone. How does Federal management of our Nation's airspace 
provide greater safety for manned and unmanned aircraft, especially 
aircraft that operate in lower altitudes?
    Answer. Singular Federal management of the airspace provides the 
critical standardization necessary to keep aviation operations safe. 
Our industry's first and foremost concern is for safety. Safety is the 
bedrock of our operating principals. Federal airspace preemption allows 
one national regulatory authority, staffed by professional subject 
matter experts, to oversee the NAS with a common set of rules and laws 
understood by all operators, either manned or unmanned. Individual 
pilots train to these regulations and company operators structure their 
operating procedures based on these common set of regulations. This 
long-established structure is an integral component of aviation safety. 
FAA airspace preemption ensures that all operators know the rules of 
the road. Safety at all levels is enhanced by standardization of rules 
and procedures, a stable knowledge base, and clearly defined lines of 
authority. Degrading and fracturing FAA airspace preemption to allow 
other entities to introduce regulations for either manned or unmanned 
aircraft creates an uncertain operating environment with reduced safety 
margins. Safety is created by knowing how other operators will 
transition through airspace. Introducing multiple variables of 
potential operational behavior just because you have crossed imaginary 
political boundaries adds risk to the operator and the public. At 
worst, these multiple variables may produce conflicting procedures or 
incentives, leading to a significant breach of safety. A helicopter 
conducting a routine aerial powerline inspection mission might cross 
dozens of local municipalities during the mission. If each municipality 
were to have singular authority over aviation activities within its 
boundaries, the result could be a regulatory environment that is 
uncertain, in conflict, and counter to safety initiatives. Different 
FAA regions interpreting national standards and guidance coming from 
Washington can produce the same problems and concerns as allowing a 
patchwork of rules by multiple authorities to regulate the Nation's 
airspace. If each FAA region interprets standards or guidance 
differently, operators are left with uncertain operating environments. 
The FAA must maintain a recognized and enforced top down regulatory 
approach so that all FAA regions apply a common, regulatory standard.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                           Matthew S. Zuccaro
    The lack of any mandatory black box on drones to help with 
investigations. Should there be an accident that causes injury or loss 
of life due to a collision between a drone and another aircraft, 
authorities will investigate, but they may turn up little information.
    There is no ``black box'' or flight recorder on board a drone that 
could give us valuable evidence of its operation, control, or flight 
path. There might be some ways of tracking activity, but little that is 
very robust.
    Question. Should Congress require that black box-like technology be 
installed on drones and UAS?
    Answer. As part of the integration of UAS into the NAS, HAI fully 
supports the tracking and identification of UAS. As technology develops 
the concept of requiring a black box-like technology for UAS could be a 
part of the tracking and ID regulation. That type of information 
recovered from a ``black box'' would be valuable to investigators in 
any unfortunate incident or accident. In this type of scenario however, 
we should not promote one type of technology over another. For example, 
one solution set could be that the tracking is not done on a ``black 
box'' onboard the UAS but the information is gathered in the 
controller. Regardless of the type of technology used, the concept of 
requiring this data could be an important tool for investigators and 
tracking flight performance.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                           Matthew S. Zuccaro
    Question. Are small Unmanned Aircraft Systems--Class 1 and Tier 1 
and 2--FAA's greatest interest? Are there other sizes relevant to 
congressional attention?
    Answer. All unmanned systems regardless of size are considered 
aircraft and, as such, should have the attention of the FAA and 
Congress. The FAA's UAS Integration Strategy is based on a continuum 
(see graph below) that addresses a progression of integration into the 
NAS. All UAS have potential impact to the NAS and the public and 
present various challenges to various portions of the full NAS if not 
handled correctly.
    The FAA is correct to be focusing its efforts on smaller UAS 
aircraft at this time (as indicated in the graph below), as they are 
the most prolific group trying to gain entry into the NAS. Congress 
should continue to support the FAA's efforts in terms of the 
integration strategy, as a safe and effective means to achieve long-
term UAS integration into the NAS and maintaining system safety.
    While the majority of UAS currently operate in the lower airspace, 
according to the FAA's continuum, larger UAS will eventually be 
integrated. Regardless of the speed of integration, all different types 
of UAS are important and require well thought out rules and regulations 
and the appropriate congressional attention.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Margaret Hassan to 
                           Matthew S. Zuccaro
    Privacy. While the benefits of integrating UAS into our airspace 
cannot be understated, it is clear that some issues remain with regard 
to safety and privacy.
    People in my state and across the country have legitimate 
concerns--which I share--about how commercial and recreational use of 
drones might impact and impede their privacy.
    Question. What more can be done to ensure the voices of our 
constituents and state and local governments are heard at the Federal 
level when it comes to generating and implementing drone policies with 
regard to safety and privacy?
    Answer. HAI is on record strongly advocating for the singular 
authority of the FAA over the NAS. FAA airspace preemption ensures that 
all operators know the rules of the road--because there is one 
regulatory authority that oversees all of U.S. aviation. Manufacturers 
build to FAA regulations, operators train to FAA regulations, and 
companies structure their operating procedures based on this common set 
of regulations. This long-established structure is an integral 
component of aviation safety, efficiency, and economic viability.
    However, a successful integration strategy must be inclusive and 
provide a place at the table for all appropriate stakeholders, 
including local and state municipalities. Safety and privacy are 
essential to all of us, and HAI is fully committed to UAS policies that 
respect individuals' privacy and safety. We expect the FAA's Unmanned 
Aircraft System Integration Pilot Program (IPP) to be an effective 
testbed to further explore examples of possible solutions to improving 
the vital link of communication between local and state authorities, 
the aviation community and the FAA. HAI has and maintains a very 
aggressive program of community relations and looks forward to working 
with local municipalities on such important initiatives.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Jim Inhofe to 
                              Todd Graetz
    Question. For over two years, the BNSF Railway has been working 
with the FAA through the Pathfinder Project to specifically explore the 
ability to safely operate drones beyond visual line of sight in rural 
areas. Do you believe that your participation in this program has 
provided the needed data and operational experience to allow FAA to 
move forward with rulemaking to allow the operations of drones beyond 
the visual line of sight?
    Answer. Through BNSF's participation in the Pathfinder program, we 
conducted more than 680 hours of ``beyond visual line-of-sight'' 
(BVLOS) drone flights which provided more than 2.8 terabytes (TB) of 
flight and safety data collection information for the FAA to review. 
This information will help the FAA safely integrate commercial UAS 
flights into the NAS, but most of the BVLOS flights we conducted were 
in a remote corridor which limited the presence of random air traffic 
and overflights of populated areas. We are confident our work with the 
FAA to develop multiple safety mitigations to protect manned aircraft 
from our drone operations in Pathfinder will allow them to apply the 
lessons as they consider moving forward with any rulemaking to permit 
BVLOS drone operations in areas with higher air traffic levels.
                                 ______
                                 
 Response to Written Question Submitted by Hon. Richard Blumenthal to 
                              Todd Graetz
    The lack of any mandatory black box on drones to help with 
investigations. Should there be an accident that causes injury or loss 
of life due to a collision between a drone and another aircraft, 
authorities will investigate, but they may turn up little information.
    There is no ``black box'' or flight recorder on board a drone that 
could give us valuable evidence of its operation, control, or flight 
path. There might be some ways of tracking activity, but little that is 
very robust.
    Question. Should Congress require that black box-like technology be 
installed on drones and UAS?
    Answer. BNSF believes the question of the necessity and utility of 
a flight recorder on various types of UAS is best left to experts in 
the development of drone technology at the FAA and the UAS 
manufacturing community. As a railroad, we lack the institutional 
background to determine whether other options or concepts might be as 
or more effective to address potential incidents regarding a wide range 
of UAS flight activity. For BNSF's UAS utilization, we have found the 
tracking and recording mechanisms presently utilized on our UAS flights 
sufficient for safety and flight review.
                                 ______
                                 
      Response to Written Question Submitted by Hon. Tom Udall to 
                              Todd Graetz
    Question. Are small Unmanned Aircraft Systems--Class 1 and Tier 1 
and 2--FAA's greatest interest? Are there other sizes relevant to 
congressional attention?
    Answer. BNSF has been using various classifications of UAS to 
support safety initiatives on our network, but we are unclear as to the 
FAA's interest level in the specific sizes and types of UAS that are 
commercially available. Congress will likely need to remain cognizant 
of the capabilities of any size drone that is commercially available as 
it considers future action regarding the safety and security of their 
use.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Maggie Hassan to 
                              Todd Graetz
    Privacy. While the benefits of integrating UAS into our airspace 
cannot be understated, it is clear that some issues remain with regard 
to safety and privacy.
    People in my state and across the country have legitimate 
concerns--which I share--about how commercial and recreational use of 
drones might impact and impede their privacy.
    Question. What more can be done to ensure the voices of our 
constituents and state and local governments are heard at the Federal 
level when it comes to generating and implementing drone policies with 
regard to safety and privacy?
    Answer. BNSF initiated the use of UAS on our system with a complete 
focus on safety when our company was selected to be part of the FAA's 
Pathfinder program. Drone technology was used to provide an additional 
overlay of inspections making it another tool for our comprehensive 
risk based safety program. In taking every step to ensure the safety of 
our workforce and the public, the FAA implemented a robust risk-based, 
data-supported oversight system which enabled the agency to best target 
priorities and resources, and permitted BNSF the necessary flexibility 
to safely make the first long-range ``beyond visual line-of-sight'' 
(BVLOS) UAS operations a reality. The FAA has significant experience in 
working with local governments and the American public on a host of 
sensitive matters. As Congress contemplates developing future policies 
to address safety and privacy needs regarding drone flights, it should 
work closely with FAA to consider the agency's experience and review 
lessons learned through the Pathfinder program in these issue areas.

                                  [all]
</pre></body></html>
